<html>
<title> - [H.A.S.C. No. 112-17]GLOBAL CHALLENGES TO READINESS AND THE FISCAL YEAR 2012 BUDGET REQUEST</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-17]
 
                     GLOBAL CHALLENGES TO READINESS
                        AND THE FISCAL YEAR 2012
                             BUDGET REQUEST

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 10, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-465                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>  
  


                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Lynn Williams, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 10, 2011, Global Challenges to Readiness and the 
  Fiscal Year 2012 Budget Request................................     1

Appendix:

Thursday, March 10, 2011.........................................    43
                              ----------                              

                        THURSDAY, MARCH 10, 2011
 GLOBAL CHALLENGES TO READINESS AND THE FISCAL YEAR 2012 BUDGET REQUEST
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Representative from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     1
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Bolger, LTG Daniel P., USA, Deputy Chief of Staff (G3/5/7), U.S. 
  Army...........................................................     5
Carlisle, Lt. Gen. Herbert J., USAF, Deputy Chief of Staff for 
  Operations, Plans and Requirements (A3/5), U.S. Air Force......     7
Clingan, VADM Bruce W., USN, Deputy Chief of Naval Operations, 
  Plans and Strategy (N3/N5), U.S. Navy..........................     9
Tryon, Lt. Gen. Richard T., USMC, Deputy Commandant for Plans, 
  Policies, and Operations, U.S. Marine Corps....................    10

                                APPENDIX

Prepared Statements:

    Bolger, LTG Daniel P.........................................    51
    Carlisle, Lt. Gen. Herbert J.................................    61
    Clingan, VADM Bruce W........................................    74
    Forbes, Hon. J. Randy........................................    47
    Tryon, Lt. Gen. Richard T....................................    78

Documents Submitted for the Record:

    GEN Martin E. Dempsey's Letter to the Hon. Adam Smith 
      Regarding the U.S. Army's Fiscal Year 2012 Unfunded 
      Requirements...............................................    89
    Lt. Gen. Richard T. Tryon's Responses to Questions Asked by 
      the Hon. J. Randy Forbes During the Hearing................    87

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................    93
    Mrs. Hartzler................................................    93

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   111
    Mr. Forbes...................................................    97
    Mr. Runyan...................................................   114
 GLOBAL CHALLENGES TO READINESS AND THE FISCAL YEAR 2012 BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Thursday, March 10, 2011.
    The subcommittee met, pursuant to call, at 10:31 a.m. in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Now called to order. We want to welcome all of 
our witnesses and tell you how excited we are to hear your 
testimony today. I want to thank you for your service to our 
country and particularly for taking time to share your 
experiences and insight with us as we look at the readiness 
needs for our men and women in uniform.
    We did something a little bit out of order today. This is 
one of the most bipartisan subcommittees, I think, that we have 
in Congress. And I am proud to serve with my ranking member 
from Guam, Madeleine Bordallo and she is not only our partner 
in this, but she is a great resource for us in the entire 
Pacific area having traveled there so much, lived there, 
studied there.
    And we all believe that the Pacific is a huge area of 
concern for us and readiness concern, so I am going to turn now 
to Madeleine and ask her to offer her opening remarks and any 
comments that she might have.
    Ms. Bordallo.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 47.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A REPRESENTATIVE FROM 
        GUAM, RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman, 
for your kind remarks. And I do look forward to seeing how this 
new dialogue format works out during this morning's hearings.
    To our witnesses, I look forward to your testimony.
    General Carlisle, it is good to see you again. We miss you 
out at the 13th Air Force in Hawaii, but we are glad to have 
your background and expertise in the Pentagon.
    To the other witnesses, it was nice to meet you all this 
past week and discuss issues of mutual concern.
    Today's hearing is the second part in a series that is 
investigating the readiness of our military to respond, in the 
context of the fiscal year 2012 budget submission, to the full 
spectrum of threats that are known and threats that are 
unknown.
    During the last hearing with the panel of outside 
witnesses, I stressed that assuming risk is expected in any 
budget, especially in our operation and maintenance budgets. 
And I think the key is to understand better where we assume 
risk and why this committee should accept that risk.
    The QDR [Quadrennial Defense Review] Global Posture Review 
and other strategic documents outline a broad and ambitious 
goal of addressing the full spectrum of threats. And I hope 
that our witnesses today can contextualize their remarks with 
these strategic documents as guides. In other words, explain 
the risk this budget request presents in the context of our 
Nation's strategic global defense posture.
    And further, I remain concerned that, given the size and 
the scope of the operation and maintenance budget, these 
accounts are prime targets for budget cuts. Given the current 
era of fiscal austerity, I feel that these accounts will become 
even easier targets for cuts as the Department pursues a broad 
range of cost-cutting initiatives.
    It may be easy to cut O&M [Operations and Maintenance] 
funding now to make up shortfalls elsewhere, but the second- 
and the third-order effects of these cuts can end up costing 
the Department and our taxpayers more in the long run.
    I also hope that our witnesses will address what impact a 
potential year-long continuing resolution will have not just on 
fiscal year 2011 but on the budget for 2012. I feel that if we 
do not pass a defense appropriations bill with the requested 
fiscal year 2011 funding levels, that we will end up with even 
further significant shortfalls in 2012 that will negatively 
affect readiness without truly addressing our country's core 
fiscal issues.
    In particular, I am concerned about the operational impact 
of the canceled Navy ship maintenance availabilities. The key 
to a 313-ship Navy is ensuring that our ships are continually 
and well maintained to achieve their expected and even extended 
service life. How will the Navy address this matter?
    Further and in a broader context, I am deeply concerned 
about training capabilities and overall readiness in the 
Pacific AOR [Area of Responsibility]. I remain concerned that 
even while our Services move to expanded ISR [Intelligence, 
Surveillance, and Reconnaissance] platforms, we still--we 
still--do not have sufficient coverage in the Pacific.
    While I greatly appreciate the Administration's tremendous 
focus on the Asia-Pacific region, I believe that more can be 
done to better posture us against current and emerging threats 
in this region. We focus on China's growing military power and 
North Korea's nuclear capability, but we cannot lose sight of 
asymmetric threats in Indonesia, southern Philippines and 
southern Thailand.
    So I hope our witnesses can also discuss the importance of 
the military buildup on Guam and the strategic importance of 
this realignment of military forces to meet both traditional 
and asymmetric threats in the Asia-Pacific region.
    Mr. Chairman, I thank you, and I yield back my time.
    Mr. Forbes. Thank you, Ms. Bordallo.
    And once again, I want to welcome all our members today to 
what I think is going to prove to be one of the most important 
hearings of the year. We have the opportunity to discuss not 
only the state of military readiness today, but to also look to 
the future readiness needs of the force.
    Joining us today are four exceptional witnesses 
representing each of our military services. They are Lieutenant 
General Daniel P. Bolger, Deputy Chief of Staff for Operations, 
U.S. Army; Lieutenant General ``Hawk'' Carlisle, Deputy Chief 
of Staff for Operations, Plans and Requirements, U.S. Air 
Force; Vice Admiral Bruce W. Clingan, Deputy Chief of Naval 
Operations for Operations, Plans and Strategy for the United 
States Navy; and Lieutenant General Richard T. Tryon, Deputy 
Commandant for Plans, Policies, and Operations, U.S. Marine 
Corps.
    These four distinguished gentlemen are often referred to as 
the Ops [operations] deputies or Ops Deps inside the Pentagon. 
They are charged with not only formulating policy to advance 
their Services' core missions, but they are also responsible 
for determining the operational requirements, capabilities and 
training necessary to support the national security objectives 
and military strategy.
    Gentlemen, we are truly honored to have you join us today, 
and we are extremely grateful for all you do to keep this 
Nation safe. Thank you for your service.
    This hearing is the second in a series of hearings we are 
holding to ask the question, ``Are we ready?'' Last week's 
testimony by a panel of independent witnesses was extremely 
thought-provoking, and I believe it serves as a great framework 
for our discussion today.
    The witnesses all emphasized that our force levels are 
inappropriately sized and apportioned to respond to challenges 
of current global environment. Ms. Eaglen also illuminated the 
fact that our Nation's armed forces are approaching a geriatric 
state.
    To give our members a few specific examples of what that 
really means, our surface fleet has an average age of 19 years. 
The average age of our strategic bombers is 34 years. The 
average age of the C-130H fleet, which I know many members are 
familiar with because we often fly on them when we go on CODELs 
[Congressional Delegations], is 23 years. Our Air Force tanker 
fleet is over 46 years, and the Marine Corps amphibious assault 
vehicle fleet has an average age of 38 years.
    Not only have we allowed our ships and aircraft to reach 
this geriatric state, but we have also downsized our inventory. 
In 1990, we had the equivalent of 76 Army brigades. Today, that 
number is 45. In 1990, we had 546 Navy ships. Today we have 
286. In 1990, we had 82 Air Force fighter squadrons. Today we 
have the equivalent of 39. In 1990, we had 360 strategic 
bombers. Today we have 162, and the Air Force wants to retire 
six of these before the next one is even funded.
    We find ourselves postured in this manner at a time when 
China has rapidly grown and modernized its military. I ask 
unanimous consent that this chart depicting the growth in 
China's surface fleet, submarine force, air force and air 
defense between 2000 and 2009 be entered into the record. The 
chart is up on the screen, and each of our members will be 
given a copy of it.
    [The information referred to can be found in the Appendix 
on page 50.]
    Mr. Forbes. We cannot afford to allow a budget target to be 
the sole governing basis in our decisions today, or we will 
bear an enormous cost in the future. I like to refer to this as 
the instant pudding mindset. We have grown accustomed to quick 
solutions and fast results. However, the outcomes, in many 
cases, have been devastating.
    There will be no instant pudding solutions to these 
challenges we face. We must break our dependence on deficit 
spending, right our entitlement programs, unleash our labor 
force, and reorder our Federal Government, if we are going to 
successfully respond to China's economic momentum and military 
buildup.
    Once again, I am very thankful to our distinguished 
witnesses, and I look forward to our discussion.
    And as a logistical matter, as the ranking member and I 
discussed prior to the hearing, I would like to dispense with 
the 5-minute rule for this hearing and depart from regular 
order so that members may ask questions during the course of 
the discussion.
    I think this will provide a roundtable-type forum that will 
enhance the dialogue on these very important issues. We would 
like to proceed with standard order for members to address the 
witnesses. However, if any member has a question pertinent to 
the matter being discussed at that time, please seek 
acknowledgment and wait to be recognized by the chair.
    We plan to keep questioning to the standard 5 minutes. 
However, I don't want to curtail productive dialogue. I believe 
we can do this and still ensure each member has the opportunity 
to get his or her questions answered. If we get bogged down, 
the chair will ask members to hold further discussion until the 
first round of questioning is complete.
    I ask unanimous consent that for the purposes of this 
hearing we dispense with the 5-minute rule and proceed as 
described. Since there is no objection, we will do that.
    Let me do now two things logistically to our members. One 
of the things we are trying to do is just get answers. As I 
mentioned at the outset, we are blessed. This is one of the 
most bipartisan committees probably in Congress. And we had 
some suggestions at the last hearing that rather than wait 
until your 5-minute time comes along, if a member has a 
question or follow-up, we want you to ask that question when it 
comes along.
    So what we are going to do is go in the order that the 
members are in terms of seniority. But if you have a question 
at any time based on that question or anything else, please 
just let me know. We are going try to be as flexible as we can 
in trying to get those answers. And if it runs too long, I will 
just try and stop that, and we will go into a second round.
    Gentlemen, as I mentioned at the beginning, we thank you so 
much for your service. And I want to just kind of frame the 
opening of this something different than what we normally do. 
We have your written testimony, and I have read it. Many of our 
members have read it; if not, they will read it.
    This morning what I am going to ask you to do is something 
different. Normally, we will have witnesses that come in, they 
give us written testimony, and then they give us 5 minutes of 
prepared remarks. The hope sometimes for our witnesses, I 
think, is to get out without having had to say anything. And we 
are caught in this dilemma.
    Some of us are frustrated because Congress has been 
spending way too much money for years in the past, and we know 
that exists. There are some frustrations with some of our 
members because we don't feel--with some of the folks in the 
Pentagon, I am not talking about you but just some of them--we 
don't always get the answers we need on the analysis that we 
need.
    Sometimes people walk over here, and they tell us, ``the 
DOD [Department of Defense] has decided to make cuts, but you 
don't need to have any analysis on that at all. You just need 
to trust us.'' But then when we make cuts, they come over and 
say, ``That is going to be the sky falling, and you just need 
to trust us.''
    Oftentimes, you have all heard this. In the field, you have 
heard the men and women that serve under you say, ``Those guys 
in Washington just don't get it.'' This is your one opportunity 
to help us get it. And so for each of you, I would like for you 
to take about 5 minutes each before we go in to the question 
and tell us your perception of what those men and women under 
your commands need to be ready.
    Are these budgets going to do it? What are your concerns 
about our readiness? This is your opportunity to make sure when 
a fight comes, we have done everything in our power to make 
sure we have prepared them. And we thank you for doing that.
    And in alphabetical order, we are going to start, General 
Bolger, with you if you would. And thank you again for being 
here.

 STATEMENT OF LTG DANIEL P. BOLGER, USA, DEPUTY CHIEF OF STAFF 
                      (G3/5/7), U.S. ARMY

    General Bolger. Thank you very much, Chairman Forbes and 
Ranking Member Bordallo and all the distinguished members of 
the House Armed Services Committee Readiness Subcommittee.
    On behalf of Secretary McHugh, and General Casey, and more 
than 1 million soldiers who are serving today in the active 
Army, National Guard, and Army Reserve, thanks for giving me 
this opportunity to talk about just what you just ask about, 
and that is the state of our Army readiness.
    And thanks also for all of the members and your continued 
support and commitment to our soldiers and our operations 
worldwide.
    You know, we live in a dangerous world, and I know that is 
not news to anybody here, but it bears repeating under these 
circumstances. We are a people that has global, political, 
economic, and security interests, and we do face threats that 
include terrorists, aggressive states and movements, and even 
nuclear-armed countries that have powerful conventional armed 
forces.
    And one thing we have learned--I think it has been 
underscored for us in the last few weeks--we can rarely predict 
the next crisis. When things go wrong, we do have to be ready 
to fight. We do like to get ahead of the threats when we can, 
to deter and shape them in a constructive way.
    We are always ready to engage positively to help our 
friends and partners. You know, right now, today soldiers are 
working in more than a 100 countries to train local forces and 
keep the peace and assist in humanitarian challenges. And 
soldiers bring a big range of skills. Some of those skills are 
unique even among the many skills provided by U.S. Government 
agencies.
    And because soldiers can secure themselves when they go in 
to a foreign country, we can often go in to the toughest areas 
and still make a difference. Whether in combat campaigns, or in 
these shaping operations, successful efforts take time. And 
America's enemies always question our staying power. So to 
achieve lasting results our Army must sustain its operations 
over the long haul.
    We have built on the experience of the Navy, the Marine 
Corps, and the Air Force, as well as our allies and have 
reshaped our force on a cycle of readiness for Army forces that 
runs year after year. We go out and we come back as trained, 
formed, and well-equipped units, and our combat effectiveness, 
I think, has been impressive.
    We do have a strong Army today, Active, National Guard and 
Reserve. And we are fighting two major land campaigns as we 
gather this morning. We are also carrying our other key shaping 
tasks all around the world. We put about 200,000 soldiers out, 
about 170,000 rotational forces, and about 30,000 forward-
deployed in friendly countries.
    About 50,000 to 70,000 of these soldiers on a daily basis 
come from the National Guard and Reserve. Today, most of that 
combat power, as we know, is in Afghanistan and Iraq, and as we 
draw down in Iraq, we will let our forces come back from a 
surge level pace to one we can follow for a long time and keep 
going.
    We would like to get to about 1 year out and 2 years back 
for Active forces, and about 1 year out and 4 years back for 
the Guard and Reserve, heading to a sustained rate of 1-to-3 
and 1-to-5. And that tempo will let us reset and modernize our 
combat vehicles and our aircraft and our radios and our weapons 
and all our equipment.
    And it will also allow to educate our leaders and our 
soldiers and to train our units across the full spectrum of 
operations from peacekeeping and wide area security up to and 
including combined arms maneuver.
    And most important, a sustainable tempo will reinvigorate 
the strength of our force, our great volunteer soldiers. We 
spin too fast. We have some hard results, and we know those. We 
have got about 30,000 soldiers in long-term medical care, about 
40,000 with post-traumatic stress. We have had challenges with 
our suicide rate, misdemeanor crimes, spouse and child abuse, 
all that.
    There also has been a significant monetary cost of billions 
of dollars, not just in the Army and the Armed Forces, but 
across society. These are tragic long-term effects. And I think 
we have to think that just as we need to reset our jet bombers 
and our nuclear-powered aircraft carriers with timeout for 
maintenance, we also have to take time to reset and recalibrate 
our most important strength of our Army, our soldiers.
    So that is what our Army is doing today. It is an Army 
America can be proud of. And we will succeed today and in the 
future with your continued help. Thank you very much.
    [The prepared statement of General Bolger can be found in 
the Appendix on page 51.]
    Mr. Forbes. General Carlisle.

 STATEMENT OF LT. GEN. HERBERT J. CARLISLE, USAF, DEPUTY CHIEF 
 OF STAFF FOR OPERATIONS, PLANS AND REQUIREMENTS (A3/5), U.S. 
                           AIR FORCE

    General Carlisle. Mr. Chairman, Congresswoman Bordallo, 
distinguished members of the committee, again, thank you for 
the opportunity to provide an update on the readiness of your 
United States Air Force.
    Before we start, though, I would like to wish Congressman 
Giffords a speedy recovery. And I look forward to her coming 
back to this committee as soon as possible and for her to know 
that all the members in the United States Military value her 
and respect her for everything she does for us, and certainly 
the men and women serving at Davis-Monthan in the Tucson area 
look for her speedy recovery.
    My intent today is to describe the current status, 
activities and readiness of the United States Air Force. And I 
am proud to be here with my joint partners as well, because 
together we spend a lot of time just like this in different 
forums.
    Let me begin by saying that the 690,000 men and women in 
the United States Air Force, Active Duty, Guard, Reserve, and 
Department of Defense civilians who are ready to execute our 
mission. We are committed to the readiness and the ongoing 
operations abroad and at home.
    Mr. Chairman, as you know--excuse me--since the events of 
9/11, the tempo of our operations has continued to increase, 
with 2010 serving as a benchmark in just everything we have 
done. Close air support has increased. Our air refueling and 
airlift within the AOR has increased. Our ISR shortage has 
continued to double.
    And we are asking more and more of these young men and 
women every day. I think to your point, Mr. Chairman, as all 
the members of Congress' job is to take care of their 
constituents, the gentlemen sitting at this table, our job is 
to take care of those men and women in harm's way outside the 
Beltway. And that is what we are going to do.
    As a matter of fact, you can--one example would be our 
rescue forces. The heroic actions of our rescue forces have 
been hailed by the British, our partners over there as well as 
our U.S. partners, and as a matter of fact, the British combat 
soldiers can call our ``Pedro'' guys. That is the call sign of 
our rescue forces, the helicopters, and the airmen. It is the 
only thing more popular than mail in the AOR.
    It says a lot about what they do. And when you say, 
``Pedro,'' we will come anywhere, anytime, during any weather. 
And the helicopters have the holes in them to prove it. At the 
same time we are trying to recapitalize that fleet and the CSR 
[Combat Search and Rescue] fleet and how we get back on step in 
giving them the equipment they need.
    After 20 years of continuous deployments and 10 years of 
operations in Afghanistan and Iraq, these operations continue 
to stress both people and platforms, and they challenge our 
ability to maintain readiness to the full spectrum of 
operations. And, Mr. Chairman, that is the key. It is the full 
spectrum of operations, as Ms. Bordallo mentioned, these other 
things going on in the world and we are incredibly engaged to 
win the day's fight in Afghanistan and Iraq. But there are 
things throughout this world we have to be ready for, and that 
full spectrum of operations for all the Services is ones that 
we have to be cognizant of all the time.
    And again, I know, Mr. Chairman, that everyone in this 
committee clearly knows that, given the increase in our 
operations and the decision to extend the continuing 
resolution, we all know that that will cause major 
perturbations and problems for our readiness.
    It will suspend some systems sustainment. Depot maintenance 
activities will be deferred. Aircraft and airplanes going to 
depot will be deferred, all of which will adversely affect our 
people that are moving into harm's way every day, so we truly 
hope that Congress can come to a resolution of the DOD budget 
for fiscal year 2011 for the benefit of our military members.
    They remain dedicated, and they are the foundation of our 
Air Force. And as you said, Mr. Chairman, it is all about the 
people and what they do for us day in and day out, out there. 
Across the spectrum of what we do, we are meeting and exceeding 
the combatant commanders' requirements today.
    All of our capabilities are adequate to meet today's 
demands. And my concern for the future is how do we prepare for 
the next conflict in the next generation and what we are going 
to face next. Our aircraft readiness is adequate. It is not 
great. And it is not going up. It is level to going down, but--
--
    I assume that is not me.
    Mr. Forbes. It is our buzzer, General.
    General Carlisle. It is maintaining the level. It is 
adequate, but it is troubling for the future and again, our 
ability to conduct full spectrum operations.
    Our mobility forces have doubled their activity almost 
every year. We are airdropping more in the AOR more than we 
ever have before. I will tell you that with respect to 
modernization and the slides you brought up, we have 
challenges, and we have to face those soon with respect to both 
modernization and recapitalization of all our fleets.
    We are on a path with the F-35 and its way forward. The KC-
46X, the C130-J, and CV-22 are all good starts, but we got a 
lot of work to do. And our combat forces continue to provide 
the needs of our United States, and of course, of our combatant 
commanders.
    A strong Air Force will continue to deliver global 
vigilance, reach and power. The resolution, as I said before, 
the defense appropriations bill will certainly help continue 
our readiness in the Air Force and the ability to serve this 
Nation's daunting challenges in the future.
    I have provided a written statement for the record. But I 
would like to thank you again for your interest in taking care 
of your airmen and on behalf of all the airmen and their 
families, thank for what you do for us.
    [The prepared statement of General Carlisle can be found in 
the Appendix on page 61.]
    Mr. Forbes. And thank you, General. I apologize for the 
buzzing.
    General Carlisle. Yes, sir.
    Mr. Forbes. But the Air Force always comes through.
    Admiral.

STATEMENT OF VADM BRUCE W. CLINGAN, USN, DEPUTY CHIEF OF NAVAL 
       OPERATIONS, PLANS AND STRATEGY (N3/N5), U.S. NAVY

    Admiral Clingan. Chairman Forbes, Ranking Member Bordallo 
and members of the committee, I am in fact delighted and 
privileged to be here today.
    Today, as we have done for more than 235 years, the Navy is 
forward-deployed around the world, protecting our national 
interests. Global trends and an uncertain world underpin an 
increasing demand for seapower.
    Mr. Chairman, you asked what might be the preeminent 
concerns of the sailors, both here and abroad, and I would say 
that Congress writ large like this committee clearly does 
appreciate that.
    As a maritime Nation, the United States is dependent upon 
the sea for both economic prosperity and national security. 
This places global demands on our naval forces. Their 
expeditionary capabilities enable and support joint force 
efforts to combat both conventional and irregular challenges in 
Iraq and Afghanistan, throughout Africa, and elsewhere 
throughout the world.
    As has been mentioned, while ground forces remain engaged 
in our OCO [overseas contingency operations] and eventually 
reconstitute and reset, naval forces will remain the Nation's 
strategic reserve and immediate response force.
    The sustained presence and engagement of forward-stationed 
and rotational naval forces will take on even greater 
importance as the future security environment promises to be 
characterized by multiple, concurrent, diverse challenges that 
demand an immediate response that often can't wait for 
diplomatic access to be negotiated.
    The President's budget in 2012 continues to maintain a Navy 
that is forward-postured and present to prevent conflict, deter 
aggression, enhance cooperative relationships, build the 
maritime security capacity of partners, provide humanitarian 
assistance, and prevail in combat at and from the sea, if 
required.
    Thank you for your unwavering commitment to our sailors, 
our Navy civilians, and their families and for all you do to 
make the United States Navy an effective and enduring global 
force for peace.
    I look forward to your questions, Mr. Chairman.
    [The prepared statement of Admiral Clingan can be found in 
the Appendix on page 74.]
    Mr. Forbes. Thank you, Admiral.
    General.

STATEMENT OF LT. GEN. RICHARD T. TRYON, USMC, DEPUTY COMMANDANT 
     FOR PLANS, POLICIES, AND OPERATIONS, U.S. MARINE CORPS

    General Tryon. Good morning, Chairman Forbes, Ranking 
Member Bordallo, and the distinguished members of the committee 
here today.
    Today, after nearly a decade of combat operations, the 
United States Marine Crops remains the country's expeditionary 
force in readiness. The ability of the Marine Corps to serve as 
the Nation's crisis response force can be attributed to the 
steadfast support of this committee and Congress, and for that, 
sir, we thank you.
    The Commandant has established four service-level 
priorities as he has entered office--first, to provide the 
best-trained and equipped Marine units to Afghanistan; second, 
rebalance our corps and posture it for the future; third, to 
better educate and train our marines to succeed in what is an 
increasingly complex operational environment; and fourth, to 
keep faith with our marines, our sailors, and their families.
    At this moment there are roughly 32,000 marines deployed 
around the world. Twenty thousand are serving in Afghanistan's 
Helmand province. Partnering with the United States Navy, we 
are forward-deployed and forward-engaged across the globe. 
Deployed and deploying units report the highest levels of 
readiness for their assigned missions.
    The distributed nature of the battlefield in Afghanistan, 
however, requires that we augment our forward-deployed forces 
with additional equipment and personnel from non-deployed 
forces and strategic programs. We can sustain this commitment 
under current conditions for as long as the Nation requires, 
acknowledging that it comes at a cost.
    Our equipment abroad and at home station has been heavily 
taxed after nearly 10 years of combat operations. Sixty-seven 
percent of non-deployed units report degraded readiness in the 
areas of capabilities and/or resources. Resource shortfalls 
often manifest themselves as capability gaps in individual 
units or collective core competencies.
    The primary factor underlying this is equipment, and 
approximately 63 percent of non-deployed forces report that 
mission-essential equipment shortfalls exist within their 
units. Home station equipment does not qualify for OCO funding 
in general. Units in dwell are also heavily leveraged in terms 
of leadership and occupational expertise.
    Now, this is necessary in order to sustain our ongoing 
operational commitments of the deployed force. And for this 
reason, approximately 35 percent of non-deployed units report 
key personnel shortfalls. Operations have placed an 
unprecedented demand on ground weapon systems, vehicles, 
aviation assets, and support equipment.
    Congress' continuing support is needed to posture the 
Marine Corps for the future, and this will require a multiyear 
effort well beyond the end of operations in Afghanistan and the 
drawdown thereafter. Our Commandant has directed that post OEF 
[Operation Enduring Freedom], we will reconstitute as a 
middleweight force capable of operating across the spectrum of 
conflict.
    And what this means is that we will be capable of operating 
in the realm of theater security cooperation, humanitarian 
assistance, disaster relief crisis response, as well as 
conventional high-intensity combat, and amphibious forcible 
entry. We are currently in the midst of a comprehensive 
planning effort to fulfill the Commandant's vision.
    Building upon our strong traditional foundation and 
incorporating lessons learned from this conflict, we are 
confident the future Marine Corps will remain a capabilities-
based organization, agile, flexible, and versatile. As marines 
continue to serve in combat, the Marine Corps remain the 
Nation's crisis response force, ready to respond to today's 
crisis with today's forces, today.
    The Marine Corps needs the sustained support of the 
American people and Congress to maintain that readiness.
    In order to meet the challenges of the future in the future 
security environment, we will require significant consideration 
with respect to reset and reconstitution. The Marine Corps is 
grateful for the support that Congress has provided to date. We 
are also mindful of the fiscal realities confronting our 
Nation.
    We are committed to being responsible stewards of the 
scarce public funds that are available, and we are dedicated to 
serve the Nation with honor, courage, and commitment as 
America's expeditionary force in readiness.
    So thank you for the opportunity to appear before you 
today, and I look forward to the discussion and to your 
questions.
    [The prepared statement of General Tryon can be found in 
the Appendix on page 78.]
    Mr. Forbes. General, thank you.
    And thank all of our witnesses.
    At this point in time we are going into our questioning. 
And one of the things that I am going to do is to defer my 
questions to the end, because I want to hear our members' 
questions, and I may intersperse some of mine throughout, but I 
would like to, at this particular point in time recognize the 
ranking member, the gentlelady from Guam, for any questions she 
might have.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman, and I 
will be very quick.
    I have an immediate concern relative to the fiscal year 
2011 continuing resolution, and I would like to hear from all 
of the witnesses in just a very brief answer what impact a 
continuing resolution would have on operational matters in 
fiscal year 2011, as well as in fiscal year 2012.
    We have already seen cancellations of ship availabilities 
in the Navy, so this situation is deeply concerning to me. So 
if you could just briefly answer that, beginning with General 
Bolger.
    General Bolger. Thank you, ma'am.
    For us in the Army the continuing resolution challenge 
really comes down to operations and maintenance writ large. And 
that is we are going to do those things necessary to maintain 
our forces that are going into the fight. The challenges will 
begin to defer maintenance and training to give us capability 
for the full spectrum.
    So based on a year-long continuing resolution, our effect, 
we would lose about $3 billion in operations and maintenance 
budget, and we have to focus our remaining resources clearly on 
the next to deploy. That would mean some of the full-spectrum 
training we have scheduled this year to regain our capability--
for example, to do airborne assaults with elements of the 82nd 
Airborne, to do tank-on-tank combat with our armored forces, to 
do middleweight combat, as Rick Tryon referred to, that the 
Marines are doing that--some of that will be deferred, because 
we are going to put our money towards the next-to-deploy units.
    There will be some significant impacts, I believe, on 
housing and installations, because military construction, 
obviously, is awaiting this, and so the new starts will not 
occur.
    In addition, as I think you are aware, the Department of 
the Army has just recently extended their 30-day hiring freeze 
on civil servants another 30 days, so as that continues, that 
means that some soldiers will probably have to be diverted to 
do tasks that civil servants might be doing now, take us back 
to maybe 15 years ago where soldiers were doing things like 
checking vehicle registrations at gates and mowing the lawn and 
all that kind of stuff, which again diverts from the training 
and readiness that our force would need.
    And finally, ma'am, I think the other thing that I would 
mention is the challenge it will cause in terms of 
modernization, because obviously with the continuing resolution 
we are going to maintain what we have, but we are not going to 
procure new weapons, some of which were in the middle of 
procurement phase, and some like our ground combat vehicles are 
just to start some major phases in their development. So all of 
that would be on hold as we go through the continuing 
resolution.
    I guess I would summarize by saying that it will create a 
deferred maintenance in this year, and that bill will have to 
be paid at the same time we are trying to fight a war in 
Afghanistan and close out combat major operations in Iraq, 
ma'am.
    Ms. Bordallo. Thank you, General.
    General Carlisle.
    General Carlisle. Yes, ma'am, thank you.
    Very similar, I think probably all four of us will have 
much the same comments. The O&M budget will be significantly 
affected. The flying-out programs and depot maintenance and 
depot level repairables will all be deferred. Today we are cash 
flowing to maintaining the capability to serve the fight, but 
that is going to run out. And at that point we are going to 
have to start doing other pretty draconian things to just 
support the fight with no training back home.
    So on the O&M budget, as we move money within the O&M 
budget to cash flow what we are doing now, if it is not fixed 
in the fairly near term, then it is going to cause some pretty 
significant problems as we move forward.
    Also MILCON [military construction] is another one--new 
mission MILCON as well as existing mission MILCON. We have 
projects out there and capabilities that we are going to bring 
to the fight fairly soon that we can't with no MILCON budget.
    And also on the procurement side, we were going to ramp up, 
for example, our MQ-9 purchase to provide more ISR to the 
fight. And we can't increase that buy until we get a budget, so 
we are stuck at a lower capability. And although it is 
procurement, it is near-term procurement that we can't do.
    Also new starts, some of the capabilities that we are 
putting on those platforms, whether it is an ISR platform and 
kinetic or non-kinetic manner or some system or weapon that is 
a fairly short procurement timeline that we can get out in the 
field but we have to defer, and all this time it is causing us.
    And then the third one again, as Dan said, is the milpers 
[military personnel] and civpers [civilian personnel] 
shortfalls are ones that are going--the hiring is an issue, as 
well as the fact that we know we have a milpers and civpers 
shortfall that we are going to have to figure out where that 
money is going to come from to pay for that. And again, we are 
going to have probably folks in uniform doing things that were 
done by civilians that we can't do, so.
    Ms. Bordallo. Thank you. Thank you, General.
    Admiral.
    Admiral Clingan. Ma'am, the continuing resolution is having 
an effect both on current readiness and future readiness. Like 
all the Services, we will guarantee that the forces going 
forward into conflict and to do the forward-deployed missions 
are ready.
    So as we find ourselves in a situation where we need to 
reduce both flying hours and steaming days, those shortfalls 
will be allocated against the forces that we are maintaining in 
their sustainment phase, which are our surge forces to respond 
to crises that may emerge and in those forces that are 
preparing to deploy. So we will see a decline in readiness to 
complete the mission set.
    Quite specifically, if the continuing resolution were to 
continue through the balance of the year, we would find 
ourselves canceling 29 of 89--85, excuse me--maintenance 
availabilities for ships. Seventy aircraft requiring depot 
maintenance wouldn't get it; 290 engines wouldn't get their 
overhauls; 140 maintenance and construction projects across 
about 74 bases wouldn't be completed.
    And then you look to the procurement side, the future 
readiness side, we would find ourselves not being able to 
procure two DDG-51s, which are BMD [Ballistic Missile Defense] 
and multipurpose combatants. Virginia-class submarine wouldn't 
be procured. Two reactor cores, one for an SSBN and one for a 
carrier wouldn't be procured.
    Well, thousands of orders for individual sailors wouldn't 
be processed, so they would miss some of their important career 
milestones. And lastly, our travel is curtailed as we endeavor 
to go build relationships with partners and enhance their 
abilities to carry their own security burdens. That is being 
reduced as well.
    Ms. Bordallo. Thank you, Admiral.
    General.
    General Tryon. Yes, ma'am. Many of the same issues raised 
by my colleagues here apply. Equipment reset and future 
reconstitution is, of course, the greatest concern that we all 
have. We also will experience some concerns with civpers 
funding levels.
    The continuing resolution affects us in the current year, 
and it will have a ripple effect in the out-years.
    Immediately, MILCON comes to mind. $567 million in 
contracts have not been awarded to date. $2.4 billion is at 
risk for the remainder of the year. Contained in that is 13 
BEQs, bachelor enlisted quarters that are necessary to get our 
marines and serving sailors out of Cold War Era barracks that 
are 40 to 50 years old and put them into facilities that are 
appropriate for them.
    $71 million has not been awarded for our high-mobility 
artillery rocket system. There is $168 million in the budget, 
but that significantly hampers our ability to procure and build 
toward the future, and it also violates some of the economy of 
scales that we would typically enjoy as we make these 
purchases.
    Equipment reset as discussed is delayed, and there also we 
lose our economy of scales in making purchases that we can with 
the United States Army and the other Services.
    Flight hours projected to shortfall is about $225 million 
in our flight hour program at the rate that we are currently 
progressing, and we are flying at normal rates right now. Our 
sortie-based training plan will be suspended sometime during 
the fourth quarter of this fiscal year.
    Marine air ground and control system contracts have not 
been awarded. Tactical communication, modernization contracts 
to the tune of $61 million have not been awarded, and the list 
goes on. It is significant today in the here and the now, and 
it won't get any better, because the cost of recovery we would 
anticipate will only increase.
    Thank you.
    Ms. Bordallo. Mr. Chairman, I thank you for allowing me to 
ask that question, and as you can see all branches of the 
military agree on this. I know that Congress is looking for 
ways to address our financial situation, but a continuing 
resolution for the Department of Defense will only cost us more 
money and will certainly be very serious to our security in the 
future.
    So I thank all of the witnesses and if any of the others 
would like to----
    Mr. Forbes. Thank you, Ms. Bordallo, and I think all of us 
concur. We just wish that the last Congress could have gotten 
their budget out so you guys weren't having this hanging over 
your head. But, unfortunately, that didn't happen, so we have 
to try to look and see how we can put Humpty Dumpty back 
together again. And that is going mean as the CR [continuing 
resolution] goes through also looking at your fiscal year 2012 
figures, because we know they are all based on the fact that 
you had the fiscal year 2011 figures as well.
    Our next question will be done by Dr. Heck.
    Dr. Heck. Thank you, Mr. Chair.
    And thanks to all of the members here today for your 
dedication to our men and women in uniform and for your careers 
of selfless sacrifice to our Nation.
    My question is for General Bolger. I appreciated the line 
in your written testimony regarding the Reserve Force as being 
a well-equipped, highly-trained and battle-wise operational 
force. The Reserve Force is the area that is near and dear to 
my heart.
    And my question is regarding the ARFORGEN [Army Force 
Generation] model and trying to get to the, you know, one-to-
two Active Duty and one-to-five Reserve dwell time. And I am 
speaking as a commander who has got units either deployed, 
getting ready to deploy, or just coming back from deployment. 
It seems that in the ARFORGEN model there is a disconnect 
between TDA [Table of Distribution and Allowance] forces and 
TO&E [Table of Organization and Equipment] forces.
    I live on the TO&E side--I am sorry, on the TDA side. And 
so, as we are cannibalized to back-fill units that are 
otherwise deploying, we wind up falling out of our ARFORGEN 
cycle. For instance, I have got a unit that is in year TR-2 
that is currently deployed. What, if any, efforts are under way 
to try to come up with a force sustainment model that takes in 
the unique needs of the TDA side of the Reserve house?
    General Bolger. Sir, a great question. And the situation 
you described my colleague Rick Tryon talked about the same 
challenge that is occurring in the Marine Corps in particular, 
but in other Services.
    What we are doing in the Army now, sir, is we have looked 
at not just our operations force, where we put our first 
emphasis, naturally, to get forces in the field to fight. Now 
we are also looking at the institutional side of the Army, what 
we call the generating force, the part of the Army that gets 
the other part ready. And we are trying to apply some of the 
same methods to them to get them on to our cyclical readiness 
just as you described, so we don't have to borrow from those 
units to fill up the next deployers.
    And I will tell you, sir, the two things that are going to 
help with that, I believe, are, one, sort of systematizing our 
access to the Reserve Components, because the Guard and the 
Reserve are integral to what we do. As we gather this morning, 
there are almost 70,000 guardsmen and reservists on duty today 
with the U.S. Army.
    We could not carry out our task around the world without 
this unprecedented amount of support from our citizen soldiers, 
so we got to think of ways to make sure that that great veteran 
force is looked after and fully integrated in everything we do.
    And along those lines, sir, as you may be aware, Secretary 
McHugh asked General Reimer, the retired Army Chief of Staff, 
General Dennis Reimer. He and Lieutenant General Helmly and 
Lieutenant General Schultz, senior leaders of our Guard and 
Reserve, came together, ran a panel, and looked at how do we 
operationalize the Guard and Reserve. And not surprisingly, 
they brought back the exact kind of cases as you just described 
and said we have to do the institutional and the policy work 
that will solve that.
    And some of that may require--after we get done looking at 
it, we may want to come back to the Congress for potential 
legislative assistance, if it is some authorities or something 
that we need to look at to better integrate our Guard and 
Reserve and the force, sir.
    So a long answer, but a really critical subject for our 
force today, sir.
    Dr. Heck. Thank you, General.
    Thank you, Mr. Chair. I yield back.
    Mr. Forbes. Thank you, Dr. Heck, and that was an excellent 
question.
    General, could I just follow up with one of the things that 
Dr. Heck raised? In your testimony you also mentioned the Army 
is institutionalizing or trying a rotational scheme, and you go 
on to mention the need to deliver a predictable supply of 
military power.
    One of the questions we always ask ourselves are, is the 
Army ready, based on the current readiness state that we have 
and how stretched out you are, to deal with unpredictable 
events around the world, because one thing we know is that we 
are not good at predicting where they are going to be.
    General Bolger. Sir, exactly right. As we gather this 
morning, the Army does have the capability in the global 
response force that if I would have met you a few years back, I 
wouldn't have been able to say that.
    We have an airborne brigade command team in readiness at 
Fort Bragg, if they are needed for anything around the world. 
Our intent is to expand that surge force or that emergency 
force so that eventually it will grow to a size of one division 
headquarters or--I am sorry--one corps headquarters, three 
division headquarters, 10 brigade combat teams and about 41,000 
enabling forces of troops.
    We are not there yet, and that is really contingent on our 
drawdown in Iraq proceeding on schedule and no increase in our 
commitments worldwide. But if those things go into effect, we 
believe in our planning that soldiers who deploy after the 
first of October in the Active Component can expect a year out 
and then 2 years back, and then the Reserve Component can 
expect a year out mobilized and then 4 years back. And that 
will allow us to reconstitute that surge force or that 
emergency force for just the kind of contingencies you are 
describing, sir.
    We are not there yet but we can see it, and the only 
warning I would say is that it is always dependent on world 
conditions, sir.
    Mr. Forbes. Thank you, General.
    Mr. Gibson from New York had a quick follow-up question on 
that.
    Mr. Gibson. Thanks, Mr. Chairman.
    And I want to thank the distinguished panelists, both for 
being here, your testimony and for your leadership of our 
service men and women and their families.
    I did want to follow up on General Bolger's comments there. 
Based on my experience, recent experience, I led that global 
response force Army element to Haiti, and as a quick prefacing 
remark, let me just say that I have full faith that all the 
Services are dealing with the significant challenges of reset.
    And I know that there are hard choices, prioritization, and 
that we are trying to recapitalize our fleet. We are trying to 
restore the balance to the force and all the emotional and 
mental challenges that go with resetting the soldier, sailor, 
airman, marine as well.
    But my concern about readiness has more to do with how you 
all interrelate. You know, when I led that unit to Haiti, the 
challenges we had had to do with lift, having the capability to 
get our forces there to meet that mission, and then to have the 
enablers to come in a synchronized manner.
    All Services came to the fore to respond to the President's 
request, but there were issues with how we synchronize the 
assets and certainly how we got the assets to get there. So my 
question really is how often--you alluded to you get together 
often--how often do you speak about this, about----
    When you talk about readiness--I am not talking about all 
that hard work you do to get your own Services ready--how much 
discussion is there about con ops [concept of operations], 
about how you put together the suite of forces so that we can 
respond in a joint manner, which we know is the way we are 
going to respond. And how much did we learn from the Haitian 
experience?
    General Bolger. Well, sir, I will start off and then defer 
to my colleagues, but I would mention that jointness is very 
critical to everything we do. We couldn't function without it. 
Soldiers, in particular, I mean, we need a ride everywhere we 
are going, and thank God we got the Air Force, the Navy to give 
us that ride.
    You mentioned the Haiti experience, a short notice 
deployment with a force. You know, your force was ready to go, 
but a great hazard and great challenge to get them ready. And 
the other Services are just as stressed by worldwide 
operations, as you heard my colleagues say.
    I think this is why it is really, really important that we 
continue our pace of modernization and continue to get all the 
Services on a sustainable rate of operations in dwell, because 
that is what gives you the time to do the joint training and 
education you need to gain those capabilities.
    For us as the operations deputies, this is one of the 
things we have looked at. And, of course, as you know, one of 
the things we are looking at right now is how to keep the hard-
won gains of jointness since the Goldwater-Nichols reforms of 
1986, how to keep them going with the lessons learned from the 
current conflict and what we foresee as our challenges in the 
future.
    And that is something we do discuss quite a bit. It is 
often a subject of operations deputies meetings. And we 
definitely do bring in folks on things like Haiti and say, 
``What did we learn from that? You know, what went right? What 
went wrong? What can we do to mitigate these gaps,'' sir.
    Mr. Forbes. And now we are going to go to Mr. Kissell, from 
North Carolina.
    Mr. Kissell. Thank you, Mr. Chairman.
    And kind of follow-up to the questions and comments just 
made, maybe a little bit of a plug to my colleagues. The Army 
is working on a CODEL for a 1-day trip to Fort Bragg, I think, 
in June, I believe, Chris, in June, that will feature a lot of 
this global response capability. We refer to Fort Bragg as 
being the center of the universe.
    And Special Ops is there, Special Forces are there. Ten 
percent of all the Army will soon be based there with several 
commands and 34 flag officers there, so the most flag officers 
outside of the Pentagon, which I think a lot of our members 
might be able to learn a lot about this readiness component 
that we have in the global context. And as we get more 
information, we will pass that around.
    But honestly, my question--and I will preface real quickly, 
the most important assignment that we have is where our men and 
women are in harm's way. And that is where our attention should 
be in making sure that we do everything we can to minimize the 
threats there and support those men and women.
    But also, as the chairman said, we are looking to the 
future, and this series of hearings is upon readiness. The 
chairman read over a series of numbers that actually made me 
feel a little bit young to hear how old some of our equipment 
is.
    I am going to ask each one of you, and feel free to be 
brief in your answer. As the chairman said, one of the most 
important things we can have is information, to know what you 
are thinking, what your thoughts are. And so I am going to ask 
each of you to respond. What is the biggest deficiency that we 
face right now as we get ready for future challenges? And once 
again, feel free to be brief.
    General Bolger. Sir, I will start off. The biggest 
deficiency is time. As much as we enjoy good modernization, we 
have programs, it is time to train and integrate, put the great 
people we have together and have time to prepare for full-
spectrum operations. And I think you would hear that same thing 
from any of our sergeants or any of our officers as they 
prepare that training.
    They really need the time not to focus on the Afghan fight 
or the Iraq stability operations, but to focus on that full-
spectrum integration.
    Mr. Kissell. Okay.
    General Carlisle. Sir, I would echo that. I think we have 
spent 10 years doing what we are doing in Iraq and Afghanistan. 
We have got to get that right, and we have got to win, but as I 
said in my opening statement, the full spectrum and the points 
that the chairman brought up referenced the growth of, for 
example, the PRC [People's Republic of China] and their forces. 
And that is just one, and there are many more that have spent a 
lot of time expanding.
    So, our modernization and our ability to operate in an 
anti-access air denial environment, in a degraded environment 
for electromagnetic spectrum, all those are things that we in 
Iraq and Afghanistan are pretty comfortable with the fact 
anything more than about 6 feet up the ground we own.
    And we don't have to worry about our space capability 
because it is pretty well--there is not a lot of threat. But 
that won't be the case wherever we go next. And those are the 
things that I think that--and it is time, it is practice, it is 
concentration, it is modernization of the systems, it is--and I 
know Bruce will probably mention this, but the air-sea battle, 
the construct that the Department of Navy and Department of the 
Air Force put together--those are the things that we have 
really got to move. We got to take--our belief is we really 
have to go to the next level in joint. We don't need to be 
joint, we need to be integrated. And we need to go across 
domains to make things happen.
    Mr. Kissell. Admiral.
    Admiral Clingan. Sir, I have to echo my shipmates here--
time. The Navy has been operating for the last 3 years at a 
pace that is equivalent to our surge capacity. That has come at 
a cost where we have been deployed forward so much that time 
available for maintenance has resulted in a degrade in material 
readiness.
    And the time available for training has caused us to 
constrain our training to mission-tailored as opposed to the 
full range of military operations. So as we look forward, we 
would need time.
    And I might say as well that the rate of the stress on the 
force would be a little bit less, if we were at our aspiration 
of 313 ships or so as afloat for the force structure.
    Mr. Kissell. Okay.
    General.
    General Tryon. Sir, I would probably report that in my 
judgment, jointness across the board is very good. Me and my 
colleagues here, I think we work together to achieve joint 
solutions in every instance. One of the ways we do that is 
through the Global Force Management Board that routinely meets 
to discuss how forces are going to be used, where they are 
going to be used and what the economies of scale can be to 
address the given situation.
    And the Marine Corps is postured uniquely perhaps with the 
United States Navy in a--more than a joint partnership, it is 
family. And that is evidenced in a recent experience where with 
the repositioning of the 26th Marine Expeditionary Unit, a 
requirement to reinforce that unit with a battalion became 
manifest to address the scenario that is developing off the 
coast of Libya.
    1st Battalion 2nd Marines within 20 hours of receiving the 
execute order deployed into Souda Bay and across that to the 
amphibious ships and are now positioned off the coast of Libya.
    They did that because they are inherently a team that is 
task-organized and can very quickly and in an agile fashion 
adapt to the situation. However, I mentioned in my earlier 
comments about home station equipment sets. That is becoming an 
increasingly more important issue with us.
    As you probably know, a little bit different from the Army, 
when marines deploy, we take our gear forward with us. For 
example, as the marines came out of Operation Iraqi Freedom, 40 
percent of the equipment that was in Iraq was transferred to 
Afghanistan without the benefit of a full refurbishment or 
reset.
    So, that gear is still forward and it is undergoing the 
wear and the tear that is typically associated with combat 
operations. So, a lengthy answer to your question, but the 
equipment reset is indeed a priority.
    Mr. Kissell. Okay. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Kissell.
    And now the Chair recognizes the gentleman from Georgia, 
Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And I want to go back to kind of your original comments 
and, Generals, for all of you. I think every member of this 
committee wants you to have everything that you need to support 
the warfighter. And yet as we look at February's numbers, we 
had an $8 billion-a-day deficit. That is approximately an 
aircraft carrier a day, if I understand the pricing correctly.
    When we asked DOD for proposals and information, on one 
hand, we understand that we need additional dwell time for our 
soldiers, yet we know that they propose to reduce the number of 
soldiers in the Army by approximately 27,000 and the soldiers 
in the Marines by 15,000. We don't have the ships that we need. 
We don't have the planes that we need. We don't have the 
vehicles or the equipment that we need.
    And I guess as someone who has been here in Congress for 
less than 3 months, my question is what is wrong with the 
procurement process at DOD? How do we fix it? Because we 
cannot--we cannot--sustain an $8 billion a day deficit in this 
country. And as you answer those questions, I would like for 
you to tell me if you think that the national debt and deficit 
spending is a threat to our security as a country as well.
    General Bolger. Sir, thanks for that question. I will go 
first, and I would say that I think the national debt and 
deficit is a concern to all American citizens whether in 
uniform right now or not, and I know it is for me.
    And, sir, your question about procurement and the need for 
procurement reform, I think what we would say is procurement as 
written now is designed about making it perfect in every regard 
as we can, and we probably made it too complicated. And I think 
we need to settle for just good enough.
    I know for the Army, in particular in this war, we have 
brought a lot of things on to our operational need statement, 
which doesn't go through the normal procurement process, from 
small business and from others, good ideas. Maybe of 10 good 
ideas that are brought to a unit, maybe 8 of them don't work, 
but 2 of them do.
    And among those good ideas that we are currently using 
today in Afghanistan and Iraq that came to us courtesy of a 
Marine Corps program like that is the Mine Resistant Ambush 
Protected vehicle series that are keeping our soldiers alive on 
operations, our marines, our sailors, our airmen who are on the 
ground.
    So, I think there is great merit in looking at those so-
called operational need or joint operational needs programs as 
a way ahead for procurement reform. And I hope we will do that.
    And then, sir, another thing I would mention, you mentioned 
the proposed reduction of soldiers. There were two really 
important caveats on that that I think the Secretary of Defense 
wisely put on that. And the first was timing.
    It is set for the year 2015, which is 4 years from now. 
That is close in budget and programming terms, but it is a bit 
distant in terms of strategic and what may happen in the world. 
So I think we have left ourselves the opportunity to revisit 
that, if the world conditions alter.
    And then the second point is that not only is it close in 
that regard, the number is not great by itself. Our Active Duty 
strength is set at 547,400, and this would represent about 5 
percent of that. So, with 4 years to prepare, I think we can 
give the best range of options to you all and to our chain of 
command as to what type of reduction may make sense, based on 
the world situation, sir.
    Mr. Scott. Thank you, General.
    General Carlisle. Sir, I would agree and echo much of what 
Dan said. Clearly, in my opinion, our economy and our national 
debt is a national security issue. And I don't think there is 
any doubt in anybody's mind, certainly in uniform and all 
Americans, that our economy is one of our strengths itself, so 
it is something that we have to protect. And I would agree with 
you 1,000 percent.
    On the procurement side and acquisition side, sir, I think 
all the things that bureaucracy does can sometime inflate 
costs. I think there is a--and I am not a procurement or an 
acquisition expert; that is why they let us be the Ops Deps 
[Operations Deputies], because we are probably not as good at 
acquisition--but I think that we have a tendency sometimes to 
go to the exquisite, and we can't afford to go to the 
exquisite. So, I think good enough is exactly--as Dan said--is 
right.
    I think there are economies of scale. I think there is 
stability in a program that allows it to go through a process. 
I think sometimes impatience on the part of a variety of 
audiences--be it a consumer, the warfighter or job creation, 
whatever--there are a lot of people that will create 
impatience, and sometimes that causes problems in your programs 
as you move forward.
    And I couldn't agree more that we have got to get it right, 
and we have got to fix the procurement and acquisition process 
in the Department of Defense, if we are going to be able to 
maintain the level of fielding of our combat forces that we 
need for the future.
    Mr. Scott. Thank you, General.
    Admiral Clingan. Sir, in regard to the deficit spending, we 
as a Nation are equally concerned about that challenge going 
forward to develop solutions. From at least my personal 
perspective, the Department of Defense, and certainly the Navy 
budget, is carrying a level of risk this year, fiscal year 
2012, and in the out-years as we look at that.
    That would cause me to suggest that one of the solutions to 
the deficit spending that I would not advise is to diminish 
DOD, and certainly the Navy's budget. I think the Secretary of 
Defense has said that 2012 is a reduction from what we thought 
would be an increase, but still an increase. And then as we 
begin to plan in the out-years, it is pretty flat.
    But to cause a decline, I think, at a time when we are 
trying to reset and reconstitute the force and meet an evolving 
security environment, that is going to invite multiple 
concurrent diverse crises, would in fact increase risk.
    Regarding procurement, we understand and have been working 
for a number of years to address that. I believe part of 2012's 
budget across all Services was to increase the cadre of 
procurement professionals. And certainly we are looking to do 
that in the Navy as well as continue and enhance very rigorous 
oversight.
    Just one example, the type of oversight that is in my lane 
is the requirement. What is the capability requirement to make 
sure that we can generate the effects necessary on the 
battlefield that the Nation expects of us?
    And so, we don't gold watch them as we might have in the 
beginning of my career. We are looking for parity or over match 
sufficient to match the capacity equation. And so, we are 
taking a holistic approach to resolving the procurement 
challenges that we face.
    General Tryon. Sir, your second question first. I think all 
of us share concern with respect to the budget deficit and the 
implications that it has long-term.
    To your question or your comment with respect to end 
strength, I would like to just comment on the fact as this war 
progressed, both the Army and the Marine Corps were authorized 
to grow the force in order to meet the threat that was seen as 
confronting our Nation.
    And the Marine Corps began in 2007 and, in fact, although 
we achieved the numbers, the end strength, we are still in the 
process of forming units and will round out in fiscal year 2012 
to complete the ``Grow the Force'' initiative.
    Having said that, in August our Commandant directed that we 
meet and we look deep, we look down range to consider how we 
might posture ourselves for the future. And based on his 
direction, we gathered and conducted an internally driven force 
structure review leveraging lessons learned over the course of 
the 10 years of combat in order to figure out how we might 
posture ourselves better in the future, how we do more with 
less and how we can leverage the capabilities of technology in 
the operating battlefield environment today to accomplish our 
mission.
    With respect to procurement I am not a programmatic guy. 
But I would say I think we are informed to a certain extent 
with the urgent unfilled requirements, the UUNS [Urgent 
Universal Needs Statement] process that manifested over the 
course of the Iraq and now the Afghan conflict that facilitated 
the acquisition of gear that was needed on the battlefield 
quickly.
    And I know that the Defense Advanced Research Projects 
Agency, DARPA, is examining exactly the kind of question that 
you just posed to us to determine how we might better 
streamline process and accelerate acquisition to achieve the 
kind of products that we need, the reliable kind of products 
that we need to succeed in the battlefield.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Forbes. Thank the gentleman for his question.
    The gentlelady from Hawaii is recognized for 5 minutes.
    Mrs. Hanabusa. Thank you, Mr. Chair.
    I would like to begin with General Bolger, primarily 
because your statement is the only one that referenced it. And 
I would like the other generals and admirals to respond to it 
as well--on page three of your statement made an interesting 
comment about the concept of versatile force mix 
characteristic. We sort of touched upon it earlier, and that is 
of course using the Guard as well as the Reserves to sort of, I 
guess, define readiness. And that is what you are looking into 
the future, I understand your statement is saying, as to how we 
would then meet readiness requirements.
    What I am curious about is, for example, the Guard, 
Adjutant Generals are basically State appointments. It is a 
jurisdictional issue, first of all. Secondly, there are funding 
considerations, that which the State governments may pay for 
that which the Federal Government pays for.
    So, in your perception on how you feel we are moving to 
this new joint mix force, how do you anticipate actually coming 
to address jurisdictional concerns? And how are they going to 
work side-by-side? Guard units are permanent, for one thing. 
Yours rotate for another. So, how do we do this? I understand 
wartime, I am just curious about how you anticipate seeing this 
actually fulfilled for the future in terms of readiness.
    General Bolger. Ma'am, I think that is a great question, a 
great point. And exactly one of the challenges we are looking 
at as we--we refer to it as convert the Guard and Reserve from 
a strategic Reserve--in other words a force that is primarily 
gaining readiness, but you use it only in the event of a very 
major conflict, you know, the Cold War, World War III-type 
scenario.
    We are talking about it now being an operational reserve. 
And we actually learned a lot from our brothers and sisters in 
the Air Force on this. The Air Guard and the Air Reserve have 
been integrated in the Air Force for quite a while. And they 
also have to deal with the challenges of State duty versus 
Federal duty.
    And so, mirroring a little of what they learned and then 
modifying it naturally for the needs of ground forces, we think 
what we do is we are going to prioritize it so that we can 
serve the Governors and the Adjutants General.
    So, if for example, we give a predicted schedule that says, 
``Five years from now, your brigade that is normally available 
in your State is going to be rotated in and do combat duty in 
Afghanistan,'' the Governor then has time for he or she and 
their team to look at that, know that is coming up, and then, I 
think, make the prudent arrangements for who is going to pick 
that duty up.
    And I think some of the things that have been recommended, 
and these are cases we have seen, there is an Army Reserve as 
well that it does not have a State duty, but sometimes they are 
available.
    Could there an arrangement, a task organization that would 
tell the Governor, ``Look, these Active Component forces or 
these Army Reserve forces will be available to fill the gap 
while your combat brigade is deployed,'' because I think, 
ma'am, that is the real concern at the State level, and I think 
rightly so, for homeland missions.
    The other thing that helps us, ma'am, is the reorganization 
that the Department of Defense did when they established U.S. 
Northern Command and their strong relation to a strengthened 
National Guard Bureau, because our number one priority is 
always homeland defense.
    We don't always put most of our forces against it. But 
should a homeland defense issue occur, everything goes to that 
first. And I think that was one of the big lessons after 9/11, 
although most that was handled by local and State elements.
    So, we are looking very closely at that, ma'am. But I think 
this is a fundamental responsibility that goes back to the 
founding of America with the militia versus the Active Force 
and the regular forces. And I think it is one that we really 
got a great opportunity to make some good changes right now, 
because we got a very veteran Guard and Reserve.
    They don't require that great amount of training and 
mobilization time they might have needed when they were less 
well-equipped or less well-trained. They are as veteran as they 
have ever been in the Army. And I think it really gives us 
opportunity to solve these challenges that in many cases have 
existed for quite awhile, ma'am.
    Mrs. Hanabusa. Thank you.
    And I do know that the Air Force has done it very 
successfully. So, if you would, General, if you would respond 
to that.
    General Carlisle. Yes, ma'am. Thank you for the question.
    I think we at the United States Air Force, in some ways our 
mission is uniquely suited to have a mutual capability. And to 
be honest, we could not--we, the United States Air Force, could 
not conduct our mission without our Guard and Reserve partners, 
and it's every part of the mission.
    It depends on mission set. Air superiority alert or air 
defense alert that we that we set in Hawaii with 154th, for 
example, or the ASA [Air Sovereignty Alert] folks that are 
scattered and doing an incredible job throughout the Nation for 
homeland defense, those are, you know, the Title 10, Title 32 
question you asked about. But we have worked it out very well.
    They are on Title 32 orders till the klaxon goes off. The 
minute the klaxon goes off, they are on Title 10, and they are 
doing the mission for NORTHCOM [U.S. Northern Command] or PACOM 
[U.S. Pacific Command] in Hawaii.
    So we have worked our way through some of that, and we are 
sharing everything we have with our brethren here. But it is a 
unique capability in a lot of ways because of our mission set.
    The other thing that I think is that we have gone into the 
total force enterprise in the case of KC-135s and F-22s, where 
part of the squadron is Guard, part of it's Active. You have an 
amazing amount of flexibility when you build total force 
enterprise like that.
    And we still have a lot to learn. There are things we need 
to do. And with other missions where it is predominantly State. 
If we have C-130s in the southern part of the country, they can 
do firefighting in the fire seasons. The ability to back those 
guys up and send more planes out with that capability is, 
again, those are things that we can continue to work on.
    But whether it is the attributes that the Guard and Reserve 
bring with respect to continuity, which is incredibly valuable, 
experience, because they generally are very experienced, very 
good in what they do, I will tell you in my previous job in the 
13th Air Force command, that organization could not operate 
without the Guard and the 109th in the background and 
supporting us all the time. And so, I think we are fortunate in 
our ability to do that.
    Admiral Clingan. Ma'am, thank you for your question.
    We have it a little bit easier, not having a Guard force. 
And so we have embarked in the last decade on a total force 
concept where we size and shape the Active and Reserve 
Components in concert with each other.
    And we look at what our current demands are, and we assess 
what the demand will be in the future security environment. And 
we size and shape the Reserve Component on a real-time basis to 
make sure that the total force can respond to the requirements 
that we anticipate.
    We also employ our Reserve forces, whether we are involved 
in a conflict or not, day-to-day as they augment various 
activities that we have ongoing. So that keeps them refreshed 
and able to add value when they are called upon.
    General Tryon. And Ma'am, like the Navy, we have no 
National Guard, as you all know. We have a total force concept 
with our Reserve community and have had a total force concept 
for a number of years.
    Our Reserve, selected Marine Corps Reserve is 39,600 
strong. I alluded to a force structure review earlier, and just 
for point of clarification, our Reserve establishment will 
remain at 39,600. There will be no change and no impact on our 
Reserve Force.
    We also will tailor our reserve component so that it 
complements the Active Duty structure that we have. We bring 
complete units on to Active Duty. They train in our 
installations. They train side-by-side with the Active Duty 
forces. And we also utilize some of the unique capabilities in 
terms of manpower to bring Reserves forward for individual 
augments to fill joint manning documents and the like.
    Mr. Forbes. Thank you.
    The chair now recognizes gentleman from Illinois, Mr. 
Schilling, for 5 minutes.
    Mr. Schilling. Thank you very much. I appreciate your 
gentlemen's service to this great Nation.
    This past weekend I was actually in Afghanistan and got to 
see some of the great work that is happening there. Myself and 
four other members of Congress had the opportunity to walk 
through a city called Marja, which a little over a year ago, 
our men and women couldn't land there without taking fire. And 
we didn't have to wear a vest. So, you know, I just want to 
thank you for that and the work that is going on over there.
    You know, I understand the folks are getting kind of burnt 
out, lots of tours going across. And, you know, I think a lot 
of it comes down to, you know, giving them the break and make 
sure the families are taken care of. And, you know, 
constitutionally, that is our job as the Congress is to make 
sure we are well-protected, that our money is spent properly.
    And, you know, I think that the one thing that I look at it 
is the defense of this Nation is huge, because a lot of the 
other issues that we are dealing with today don't really 
matter, if we don't have a good defense system.
    So I look at it as a top priority to make sure things are 
spent properly. And then----
    Looks like I get the buzzer now--but, you know, when I 
visited with several of the troops there, they were all very 
positive, upbeat. And some of them, you know, had been over 
there for quite some time. And, you know, I guess, we look, you 
know, to you folks to just kind of help direct us and just help 
us make good solid decisions on supporting the troops, their 
families.
    You know, I know, I had a personal experience with one of 
the guys that came back. He had been back home for a couple of 
years. And about 2 months ago, he ended up taking his life. And 
it wasn't because of going in and serving the military. It was, 
you know, it was a broken home and things like that.
    But, you know, I think that there are a lot of things that 
we are taking note of, and we are focusing our efforts into 
fixing that. But, you know, I just want to thank you for what 
you are doing.
    And, you know, I think with the financial condition of the 
country, you know, every penny that we spend--you know, the one 
thing that I was talking to one of my colleagues about 
yesterday is the fact that when China spends a dollar, they 
know that dollar, every penny of it, is being spent properly. 
And, you know, that is the one thing that we have an obligation 
to the citizens to do is make sure we spend it properly.
    And look forward to just working with you all. Thank you.
    I yield back.
    Mr. Forbes. Thank the gentleman.
    And the gentlelady from Missouri, Ms. Hartzler, is 
recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, gentlemen, for all that you are doing.
    With all we have been hearing about readiness and our 
desire, our joint effort to make sure that we are ready and 
that we are fully equipped and our country is going to be safe 
in the years to come, I know we have got lots of challenges of 
equipment and dwell time and other issues.
    But at the same time, we are also approaching changing a 
major, major policy within the military, the repeal of the 
``Don't Ask/Don't Tell'' policy. And I want to get your 
thoughts about some of those things.
    And first of all, with this proposal as it is coming forth, 
what changes to facilities are you contemplating in order to 
address privacy concerns of servicemembers? And what is the 
cost going to be for that?
    General Bolger. Ma'am, I will start out with that. As you 
know right now, at the direction of the President and the 
Secretary of Defense, pursuant to the act of Congress that was 
signed last December, we are carrying out the training--to 
train our force right now and then provide an assessment. Our 
Services will provide the best military advice back on what we 
think those implications will be as we complete this policy 
change.
    I will tell you right now, ma'am, that we are anticipating 
no change at the facilities. The Army recognizes two sexes--
male and female--sexual-orientation neutral, that is whatever. 
And our goal will be the same, and the standards of conduct 
will not change.
    And what we have found in our training so far, for folks at 
my age, it is quite concerning in many cases. For folks the age 
of my son or daughter, they don't know what we are talking 
about and why it is a big deal. And the ones in the military 
are more concerned about their next deployment to Afghanistan 
or Iraq, ma'am.
    Mrs. Hartzler. So but you say right now--is the policy now 
that men and women servicemembers who have opposite sex 
attraction shower together and room together, sleep together? 
Is that the policy now in the facilities?
    General Bolger. Ma'am, right now the policy that we have is 
that males live with males and females live with the females. 
We can make an exception for that in combat, and we do. You 
know, a crew in a vehicle or something like that has mixed sex.
    Mrs. Hartzler. Why do have that separation?
    General Bolger. I am sorry, ma'am?
    Mrs. Hartzler. Why do have separation between facilities 
between men and women?
    General Bolger. Right now, really, just for privacy reasons 
and----
    Mrs. Hartzler. Okay. So we are going make a change your 
policy so people with the same-sex attraction are being able to 
shower together and to sleep in the same area, so why wouldn't 
we have separate facilities in those cases?
    General Bolger. Well, ma'am, part of it is because, 
basically, you are not allowed to act out on your inclinations 
or interest without the permission of the other person. I mean, 
the military----
    Mrs. Hartzler. And why don't we have men and women, service 
men and women sleeping in the same areas and showering?
    General Bolger. Well, ma'am, they do not shower together, 
but they do sleep in the same areas routinely. I mean, that is 
very common. And we make normal privacy arrangements, because 
when you are living very close to somebody, you are still--one 
of the biggest challenges, of course--and I say this as an 
infantry guy with almost 33 years of service--is to have any 
kind of personal space in that kind of an environment.
    And so people try to allow a little time for somebody to 
read a letter or for somebody to clean up or something like 
that without hassling when they can avoid it. So we are used to 
that. That is one of the things you learn from when you first 
come into the Service.
    Mrs. Hartzler. Okay. Thank you. I would like to hear from 
the other Services, what changes to the facilities you 
anticipate and what the cost would be.
    General Carlisle. Ma'am, much like the Army, as we work our 
way through it--and I will take for the record and come back 
with more specifics, but because it is not primarily in my area 
of responsibility within the Department of the Air Force--but 
in talking with the--as we implement this, our intent is very 
similar in that we will provide privacy.
    But additional facilities is not--additional facilities or 
splitting things up to where you have four different groups of 
people that have to maintain separation, that is not our 
intent, as far as I know right now. Again, I will come with 
more information as you need it.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mrs. Hartzler. Thank you.
    General Carlisle. And I would agree with Dan that, you 
know, the common refrain, and we all think about the turbulence 
and what it is going to cause, but to a large extent, the 
younger folks there was--``don't ask/don't tell/don't care'' in 
a lot of cases was the refrain, because they don't necessarily 
understand it. They have grown up in a different world than we 
grew up in, so.
    Mrs. Hartzler. Okay. Thank you.
    Admiral.
    Admiral Clingan. Thank you for your question, ma'am. The 
Navy policy is no change at the facilities and, therefore, no 
related costs. The facilities are based on gender, not sexual 
orientation.
    Mrs. Hartzler. Okay. Thank you.
    General Tryon. Ma'am, consistent with the Department of 
Defense policy, the Marine Corps policy is the same. The focus 
for successful implementation in our judgment is to concentrate 
on leadership, professionalism, discipline and respect.
    Mrs. Hartzler. Okay. I would like all of you to address how 
you think that this change will improve the all-volunteer force 
and not undermine morale, discipline, readiness, recruiting and 
retention.
    General Bolger. Ma'am, I would offer that the all-volunteer 
force represents the America that it is drawn from, and it is 
important that all Americans feel like the military that we are 
putting on the battlefield is their military.
    General Carlisle. Ma'am, I would echo what has been said by 
others. It is about professionalism. It is about professional 
courtesy and respect for one another, regardless. And I can 
give you my opinion with respect to what I think it will do to 
the force. I don't think any of us know right now. I think--
time will tell.
    Having said that, I think if you recruit and retain 
professional, respectful people, it won't degrade our force at 
all.
    Mrs. Hartzler. Okay.
    Admiral Clingan. The fact is that the current force has a 
number of individuals with varying sexual orientations. And as 
we go to recruit, we recruit based on other things--performance 
and their capabilities and willingness to go do the missions. 
And so I don't expect that it is going to change the recruiting 
demographics particularly.
    And, certainly, within the Service, once you have been 
inducted, or whatever the case may be, it is all governed by 
standards of behavior, which have not changed. So we don't 
consider in the Navy, based on the planning that we have done 
and the surveys we have done, that it will have a significant 
impact at all.
    Mrs. Hartzler. Thank you.
    General Tryon. Ma'am, I think today's all-volunteer force 
is a tremendous success, and I wouldn't anticipate any changes 
to that in the future.
    Mrs. Hartzler. I would concur we have a wonderful force 
right now, but I am very concerned that we in this time of war 
are getting ready to change this radical policy where, just 
like you said, General, we do not know the implication of it, 
and so I have a lot of concerns. But thank you for your 
answers. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank the lady for her questions.
    The gentleman from New York, Mr. Gibson, is recognized for 
5 minutes.
    Mr. Gibson. Thanks, Mr. Chairman.
    I am going to make a comment as far as long-term readiness 
and then I would like to reengage the near-term readiness issue 
that we were dialoguing about earlier.
    And talking about readiness, of course, it begs the 
question, ``Ready for what?'' One of the things that General 
Bolger mentioned in his early set of remarks is quite 
remarkable that we have got soldiers right now in a hundred 
countries. He made the point on time to get missions done and 
the need for staying power.
    When I'm back home in the district, my constituents really 
don't understand Iraq and Afghanistan. And that is my 
challenge. I take that on. I explain why it is that we need to 
stay. We can't afford to start a war that we don't finish. So 
it is my leadership responsibility to follow through on that.
    But I think going forward we need to have--we, the country 
need to have a national dialogue. I think everyone on this 
committee, regardless of party, we are fully committed. We are 
going to protect our cherished way of life, but there are a 
variety of views and opinions as to what that means.
    And I am of the mind that we have too many requirements. We 
are asking too much of our military right now. And, you know, 
while I think we could all pass a civics test that we are a 
republic, not an empire, to me, when I look at the facts, we 
evidence an empire in terms of where we are laid down.
    So, you know, going forward, this is a conversation I am 
having with my colleagues right now as we look towards 
completing, successfully completing our objectives in Iraq and 
Afghanistan. I think that the time is right to take a serious 
look at what does it mean to protect our cherished way of life 
as we go forward.
    I would like to reengage the topic of near-term readiness. 
I appreciate all of the responses that I received on that and 
certainly acknowledge the readiness that was displayed as it 
relates to moving forces towards any kind of potential response 
in Libya.
    But with regard to the Global Force Management Board, it is 
my view that we have got risk. We have got significant risk as 
it relates to the Global Response Force, the GRF. And, of 
course, that is in large measure because we are resourcing the 
current fight in Iraq and Afghanistan.
    But please tell me a little bit more about how you go 
through that on a joint level and how do you track the status 
of readiness among the forces and what commitment do we have in 
the out-years as far as exercises to ensure that we have the 
capability--because I think the general was getting ready to 
make a remark about the C-17 availability.
    And so the question, really, did you know--you probably 
did--did you know we had this shortfall, that if we got called, 
we weren't going to have the capability to move the Global 
Response Force? And going forward, how much situational 
awareness do we have about this challenge to readiness, to 
joint readiness deployability? Thanks.
    General Carlisle. Yes, sir. Thanks. I appreciate that 
question. I think it is. It is a question--and you are exactly 
right--it is a question of managing risk and ready to do what. 
And that is your point, so I would reiterate that.
    I think in the case of when we look at what is demanded of 
the United States military today, realizing what we have done 
for the last decade in Iraq and Afghanistan, there is risk out 
there. There is risk to every part of our force. I don't think 
there is a part of force that is not at risk.
    We spend an exhaustive amount of time, this crowd in 
particular in the ops deps tanks, and we go through Global 
Force Management and hard-to-source solutions, and it is a 
joint solution. And we do turn to one another. And if it is 
direct support C-130s trying to backfill CH-47s as much as we 
can, we can't do it across the board, because they don't go to 
the same place all the time. But we do that.
    So we spend a lot of time working joint solutions to issues 
of how we manage the force in the near-term. And to be honest, 
and I think it has been brought up before, with our Army and 
Marine brethren in their engagements that they have had over 
the last decade in a lot of cases, some of that has been Air 
Force and Navy backfill, whether it is joint expeditionary 
taskings or individual augmentees. And that is exactly what we 
need to do.
    And I think that part of the risk, that we have to realize 
is that we have incredible men and women in our military, and 
they are pretty adaptable and flexible. And we can take a 
computer technician from Lackland Air Force Base or Syracuse, 
and you can send him to do a joint expeditionary tasking in 
support of a convoy and they do great work for you.
    So we did look at joint solutions. We did look across 
Services and the synergy. We can do that. And we look to take 
advantage of our greatest asset, which is our people and their 
flexibility and adaptability.
    General Bolger. I think, sir, building on what Hawk said, 
the jointness and the people aspect to me are the two great 
multipliers we have that allows us to get more out of the 
numbers of people and planes and ships and tanks and all the 
other things we have. And we have to look for opportunities to 
build on that. Anything we can do should always look to empower 
our folks.
    And I think one of the aspects that a little additional 
dwell time is going give surely for the Army is the ability to 
get some of our folks back into professional schooling and some 
of these broadening experiences where they may have a chance to 
come over, be an intern for you or something like that, just 
give them a bigger picture than the world of kicking down the 
next door in a village in Afghanistan. And then that part is 
important, but got to get that broader view.
    And I think as that generation, with all the skills they 
are showing and the multiple talents that Hawk referred to, as 
they take charge of our military, I think we are going to see 
them come up with some of these solutions. So, you know, it 
doesn't have to be top down, sir.
    Mr. Gibson. Yes, and I appreciate those responses, too.
    And, Chairman, I am just going to make about 10 to 15 
seconds to close it up.
    The thing that is concerning to me is that as we look at 
the potential threats that we face and we look at the Global 
Response Force and we think about in terms of joint command and 
control, joint fires, sustainment capability, mobility and 
strategic mobility, I think you would agree we have got some 
risk in terms of identifying the joint forces required to 
address emerging circumstances.
    Now, in situations where we can move a fleet and we have a 
ground force with a highly trained, motivated, disciplined 
Marine Corps, that is great. But when we have to go deeper, 
when we have to reach across and maybe go to the airborne 
forces, we need a way to convey that force. We need a way to 
sustain that force and to complement that force. And it is that 
joint packaging that has got me concerned in the near-term.
    I know that that is on your radar screen. And I think it is 
important we communicate risk as we go forward in the near-term 
and as we bridge towards what I hope is a more judicious view 
of the long-term. And we are going to protect this cherished 
way of life.
    I yield back. Thanks very much.
    Mr. Forbes. Thank the gentleman.
    And the next individual for questions is the gentleman from 
Arkansas.
    And before he comes back in, General Tryon, I have a 
question for you, if I could, on pre-positioning of our stocks. 
How important is that to the Marines, because one of the things 
that we are hearing today is that that is not that important, 
that we have just sustainment vessels, we can pull them back, 
and we can be back to the fight in a week or two. You have seen 
that firsthand. How important are those prepositioned stocks?
    General Tryon. Sir, thank you. Thank you for that question. 
The Maritime Preposition Force is comprised of three squadrons 
that are forward-deployed around the world--one in the Med 
[Mediterranean], one in the Pacific, and one in the Indian 
Ocean.
    For the Marine Corps and for the program that we have, 
these are capability sets and not simply floating warehouses 
that you would draw supplies from. They are intentionally 
designed to support fly-in echelons and marry up so that 
formations can quickly assemble in a reception staging area and 
then complete their onward movement and take on whatever 
mission that might be there.
    This is a strategic program, in my judgment. Having these 
forces, these assets, these resources forward-deployed I think 
is fundamentally important, not just to the organizational 
constructs that the Marine Corps has and how we operate with 
them, but I think to the combatant commanders as well.
    It provides the combatant commanders with what is 
singularly their most important--it addresses singularly what 
their most important concern is, and that is responsiveness. 
And by having maritime preposition assets forward-deployed, we 
have a far greater ability to respond in time to a crisis or a 
contingency.
    Mr. Forbes. And two questions on that. First one is how 
important is time to you in that response capability?
    General Tryon. Sir, I think time is always of the essence, 
you know, from the Marine Corps' ethos, First to Fight, we 
can't get there fast enough. And so we want to make sure that 
we are where we need to be with what we need to have in order 
to carry the day. And the way we are organized and equipped and 
the way the resources that are located aboard the Maritime 
Prepositioning Squadrons, or the way they are arranged, they 
complement our capability to forward deploy quickly.
    Mr. Forbes. If we did not have those stocks prepositioned 
and we had the ships back in homeport, is there a difference in 
timing between just the sail time to be able to get to wherever 
the destination is? In other words, how much time does it take 
to assemble the stocks that you would need on those vessels 
before they could move forward?
    General Tryon. Sir, if the squadron is, for instance, back 
in the continental United States, East or West Coast, 
obviously, you would have to deal with whatever the tyranny of 
distance is between departing the United States and moving to 
wherever the crisis or the contingency area might be.
    Providing that the ships would remain loaded with the 
stockages that we're required to support, that would minimize 
delay in moving them forward. But when we sacrifice time, we 
assume risk.
    Mr. Forbes. What if they did not keep those ships loaded?
    General Tryon. Sir, that would then require additional time 
in order to be able to load the vessels and----
    Mr. Forbes. Could that be several weeks' time?
    General Tryon. Sir, it would depend on the squadron, but it 
would take a matter of time. And I can get back to you and tell 
you exactly what the load time for those--for a squadron might 
be. It depends on port facilities. It depends on the type of 
ship. There are a number of factors associated with that.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Forbes. The gentleman from Arkansas is recognized for 5 
minutes.
    Mr. Griffin. Thank you, Mr. Chairman. Thank you for having 
this very informative hearing.
    Thank you all for your service. I appreciate it very much. 
I appreciate you, General Carlisle, mentioning in C-130s. You 
know we have a lot of great ones in Little Rock in my district.
    General Bolger, I wanted to ask you, when you are dealing 
with the transition from a strategic Reserve to operational 
Reserve, can you talk a little bit about how you are going to 
balance the Guard's role in the States? That is particularly 
important in a State like Arkansas, where we have a lot of 
tornadoes and storms and things like that. And I know that they 
will continue to respond to several incidents like that.
    But if you could provide a little guidance, I am 
particularly interested in the training balance and how they 
accommodate that in light of a shift to an operational Reserve?
    General Bolger. Sir, that is a great question, and I think 
it comes down to the fundamental nature of the Guard having 
arisen out of the militia tradition of the United States, 
always ready for home service and then, you know, like the old 
minutemen, and then deploying overseas when necessary.
    Now, Guard in particular and our Reserve, too, have done a 
great job in that for the last decade for the Army. You 
mentioned the term ``operational.'' In the old days, the Guard 
really and the Reserve were a strategic Reserve. They were the 
force to be called on when things really got big and maybe in 
the Cold War where we were looking at a major World War III-
type scale of conflict.
    So now we use about 70,000 guardsmen and reservists on 
Active Duty today every day, really keeping them on Active 
Duty, a good number deployed overseas. And so, how do we 
balance that with the Governor's needs and expectations that 
their Guard would be available in the event of a state of 
emergency or a natural disaster?
    Two things we have done that I think are helping us in that 
area, sir. The first is trying to get the Guard and Reserve, 
and the Guard in particular, for State duty on a predictable 
schedule of deployment, which is to say about 4 years at home 
for every year deployed.
    If a Governor knew that he or she would have that Guard 
available for 4 years out of 5, then they know at least that 80 
percent of the time is covered with a trained, ready unit that 
knows the State and that lives there and is ready to go. And I 
think our Guard has done really, really well on these homeland 
tasks.
    And then, what about the year where they are going to get 
mobilized, deployed, and deployed overseas? I think this brings 
us to the second point. Secretary McHugh and General Casey 
actually commissioned a study led by General Dennis Reimer, one 
of our former Army chiefs of staff. Lieutenant General Roger 
Schultz, Lieutenant General Helmly helped them out with this. 
They were key leaders in the Guard and Reserve.
    And they came back and they said, you know, we need to look 
at a way to create more of a total force for homeland missions 
as well. Maybe we can see a future with some changes to how we 
task organize where the Governor, he or she might have able if 
the Guard brigade was deployed, they could have Army Reserve 
forces resident in that State, which are Federal forces and 
Reserve. They could have active Army units registered in that 
State. And all that would come together.
    And, sir, of course we have had some great and hard-won 
lessons learned from Hurricane Katrina, from Hurricanes Gustav 
and Ike, from the flooding as recently as this month in the 
United States, where we have seen some opportunities there to 
really get a better homeland force.
    And, sir, I would underscore that in the direction we 
received from the President and the Secretary of Defense, 
homeland defense is the number one responsibility of the 
Department of Defense. And normally, our forces are not doing 
that every day, but they are all available and should an event 
occur in the homeland, just as we saw after 9/11, everything 
will have that direction until that event is dealt with, sir.
    Mr. Griffin. Sure. I got in the Reserve in 1996, am still 
in the Reserve now, and I can tell you the clear difference 
between the 1996 strategic Reserve and the operational now, and 
particularly in terms of readiness. We call this the Readiness 
Subcommittee. I don't think I have ever heard the word 
``readiness'' until post 9/11 in the Reserve, and everything 
changed. So I know exactly what you are talking about there.
    I want to ask you about an issue that is more about 
personnel, not equipment, and that is OERs, Officer 
Evaluations--to some extent, NCOERs [Non-Commissioned Officer 
Evaluation Reports] as well for noncommissioned officers, but I 
am particularly interested in our leaders and how they are 
rated. I am waiting on an OER now as I am leaving my Reserve 
unit, and I have written and rated folks, so I am intimately 
familiar with OERs.
    And there was a great article in The Atlantic magazine 
about a month ago, and it talked about John Nagl and a bunch of 
the really sharp military leaders who have gotten out of the 
Army. And I know that we have taken steps, particularly in the 
last decade or 5 years, to be more innovative to encourage the 
cliche ``outside the box'' thinking. I saw that firsthand when 
I went to Fort Dix to phase one of ILE [Intermediate Level 
Education].
    Instead of a lecture format where you just sit, take notes 
and listen to an officer, you sit in a sort of a horseshoe, you 
are given all these hypotheticals, you are encouraged to think 
and to dialogue and to----
    It was actually surprising to me to see that kind of 
freedom in thinking and in structure in the military. And I was 
encouraged by it because I thought that it was teaching folks 
how to think instead of how to memorize some things that they 
would probably soon forget.
    So, I know that you all have--that there has been an 
evolution. I know we are making progress. But I think the way 
that people are rated--and I am sort of laying it as a 
predicate so you can comment on it--I think the way people are 
rated and then the way they are assigned is of concern to me.
    The Atlantic article mentioned that, first of all, as I 
have seen on the OER side, you see just all sorts of inflation 
where no one gets any negative comments, because a negative 
comment, God forbid, completely ruins their career.
    So you get at least good things said about you. And then if 
you did a really good job, you get extraordinary things said 
about you, but nothing bad, because then your career is dead, 
particularly as an officer, particularly as a field-grade 
officer. So the artificiality of the OER process is a concern 
to me.
    On the assignment side, what concerns me is--and the 
Atlantic article, I commend it to you, if you haven't read it--
but it talks about the fact that commanders don't have the 
ability to develop relationships with individual soldiers and 
seek those individual soldiers out on a routine basis for 
assignment.
    You get to know a soldier, you see that they are well-
suited for this position or that position, you seek them out, 
and say, ``This is the one I want.'' Now there may be some of 
that at your level. You probably have the ability to get 
whoever you want working for you.
    But down at, particularly, at the company-grade level and 
moving into the field-grade level, those assignments do 
sometimes seem random. They don't seem connected with the 
history of the individuals involved. And so I would just ask, 
if you could, to comment on that.
    And I would welcome anybody's comments on this, because I 
think that a lot of these leaders in the Army go on to lead in 
the civilian world. Sometimes, though, we lose them too soon 
from the military, and they get out not because they are ready 
to get out and they have had a fulfilling career, but many 
times, they are ready to get out because they are frustrated 
with the system.
    And if you would address that--sorry for the long 
question--but if you would address that, I would appreciate it.
    General Bolger. Well, sir, I think it is actually a very 
fundamental question because the military is all about people. 
And our goal, as you know, is when anybody joins the Army, we 
see every soldier, every private as a potential leader.
    And whether they stay in and become noncommissioned 
officers, warrant officers or commissioned officers or whether 
they do their time and get out with an honorable discharge and 
go to civil life, in any case, we think we have some leader 
development responsibilities to everyone. And we really do.
    So, even in our basic training, even in our very low level 
training, there are some of those folks who get leadership 
responsibilities. And we encourage that, because as we have 
seen over and over in the current fight, it really is a couple 
of privates first class or a young sergeant who are often 
having to make some very, very critical decisions that can have 
strategic implications.
    You mentioned evaluation, our officer evaluation. The 
current one has been around for about over 20 years, and we are 
about due to relook it. In fact, General Casey has directed 
that we come back with some options on some changes we may need 
to make, and maybe expand the way we do evaluations.
    At least for the Army, we are still pretty traditional in 
the sense that you are evaluated by your chain of command, your 
immediate commander and then commander one level up. There is 
some thought that maybe you need to get some peer feedback 
involved in that. There is some thought that maybe we need to 
hear from subordinates, you know, get what would be called in 
industry a 360-degree view.
    Now how do you do that in a hierarchical organization with 
a uniformed court of military justice--we have to work our way 
through that. But I think we have got an innovative enough 
force, so we can come up with some options there, sir. And 
since you have got some views on that, I will take back to our 
task force to come see you, because you have got some unique 
perspectives where we are at now.
    Sir, the final comment had to do sort of with, for want of 
a better term, what makes a young person stay in the military? 
And the answer is unique to every man and woman, but I think 
for the people who reach that crossroad when they decide to 
stay in or get out, it really has to do with one thing. ``Am I 
making a difference? Does the Army think that what I am doing 
is doing something?''
    I think some people think it is because of money or because 
of rank or because of getting an award. I don't think that is 
it. I think folks, they come in and they swear in front of the 
American flag, and they know it is an important task they do 
when they put on a uniform. And they want to make that 
contribution. And I think it is incumbent on us in our leader 
development to give them that opportunity to use their talents, 
sir.
    Mr. Forbes. General, thank you for that.
    And we thank the gentleman from Arkansas for his service. 
And if you have any other thoughts, if you could get back with 
the gentleman, I know he would love to work with you on doing 
that.
    Mr. Griffin. I would like to work with you.
    Thank you, Mr. Chairman.
    Mr. Forbes. General, we just have a couple of questions 
left. And I would just like to--since you got the microphone 
warmed up, General Bolger, I will just ask you. You have a 
unique perspective on jointness--that was the question that was 
asked a little bit earlier--because you were Chief Strategy 
Division J-8, and later you were Director of Strategy & 
Analysis J-5 in Joint Forces Command.
    How important is jointness to the Army? And when the flag 
goes down on the Joint Forces Command, who will have the legal 
authority to put together the teams within the Services that 
the Joint Forces Command currently have?
    General Bolger. Sir, I think that is a great question. 
Jointness for us really--and this has been long-standing in the 
American military, I mean, you can go all the way back to our 
origins when we were first working with the Army and the Navy 
and the Marines and then got the Air Force as an independent 
Service after World War II--it is absolutely critical.
    No single Service in the United States can carry out a task 
by itself. We need the team, and we are representative of a 
much larger team, obviously. You are right, sir, I had the 
privilege to serve at Joint Forces Command and to see that in 
action, because that command is charged with really enhancing 
and strengthening jointness across the force.
    And I think the proof is in the operations. I mean, there 
are things that we have been able to carry out since the 
Goldwater-Nichols Reform with Joint Forces Command, in many 
cases providing leadership, and the Services themselves working 
well together under the Joint Staff and the OSD [Office of the 
Secretary of Defense]. I think we have been able to achieve a 
lot.
    And I think, sir, your question that you asked that is 
really important is, as Joint Forces Command is disestablished 
and their responsibilities are put elsewhere, who really brings 
the team together? And, sir, my understanding of the law is 
that the statutory authority rests with the Secretary of 
Defense, always has, I mean, and obviously, with the President 
as well.
    Mr. Forbes. The Secretary obviously can't do that on a day-
to-day basis like the Joint Forces Command did.
    General Bolger. Yes, sir.
    Mr. Forbes. Does it rest anywhere else?
    General Bolger. Sir, it does. Combatant commanders have 
that authority right now.
    Mr. Forbes. Do they shift between Services?
    General Bolger. They do. For example, in Central Command, 
General Mattis can make task organization changes as necessary. 
General Ham, who just took over Africa Command, is making some 
significant ones right now, as he postures for potential 
contingencies in North Africa. So that is a combatant 
commander. That responsibility is delegated to them from the 
President and the Secretary of Defense.
    And that is one of the reasons Joint Forces Command in 
particular was a command that had a great deal of utility in 
the time that it was there.
    We are currently in the middle of preparing plans to make 
sure that the core capabilities of Joint Forces Command are 
preserved and I think, sir, we may have to come back to you all 
through the, obviously, through our Service departments and 
through the Secretary of Defense on potential authorities or 
something that may need to shift, as that organization 
transitions from being a combatant command to whatever it is 
when we are complete with this execution.
    Mr. Forbes. One last question on that, you talked about the 
teams. One of the teams that has been put together very 
uniquely has been the team of Joint Forces Command in terms of 
their ability to do jointness. Do you know of any other place 
in the world that has that unique set of individuals that have 
that kind of experience and expertise in doing that?
    General Bolger. Sir, I think you make a really good point. 
It is unique in the United States Armed Forces. It is unique 
worldwide among our allies. As you know many of our allies come 
through Supreme Allied Command transformation, which is 
headquartered in Norfolk, to work with us in that joint 
environment and to understand our hard-won lessons that go all 
the way back to the World Wars and such, what we have learned 
about operating in that joint environment.
    That workforce that lives in that area is very, very 
unique, and I can tell you at least in the planning that we are 
doing so far, sir, that is a strong consideration. How do we 
keep the core of that team together? How do we maintain that 
hard-won expertise? How do we continue to build it for the 
future? Because jointness will be just as important a year from 
now or 5 years from now or 10 years from now as it is today, 
sir.
    Mr. Forbes. Thank you.
    General Carlisle, just a quick question for you. You saw 
the charts we had on China and one of the things we are worried 
about is the modernization of our air force. You have to watch 
those airmen get into those planes and defend freedom around 
the world.
    How concerned are you with readiness capabilities when we 
look at the growing modernization of China's military and what 
should we be expecting for that in the next 5, 10, 15 years?
    General Carlisle. Well, thank you, Mr. Chairman. Great 
question. And I think my brother here, my shipmate Bruce, said 
to add this. You know certainly in the air component or the 
cross-domain space component, cyberspace component, air, 
maritime, we look at where they are putting so many of their 
resources, and it is a big concern because for the last 10 
years our focus has been in Iraq and Afghanistan and theirs has 
been on modernizing.
    I mean, it is a statement of fact. And they are doing it in 
their subsurface. They are doing it in their surface fleet. 
They are doing it in their air. They are doing it in their 
space and counter-space capability as well as in the known 
cyberspace.
    So it is very big concern, and I think Admiral Willard 
probably thinks about it every day when he gets up and every 
night when he goes to bed.
    I think that with respect to readiness, I think there is 
qualitative advantage that we still possess, despite their 
rolling out of their newest airplane. And in our legacy and new 
systems is our current hedge against what they are doing. I 
believe our future--a successful F-35 program for all the 
Services, a successful long-range strike capability, a 
successful SSBN and DDG fleet--all those things are critical as 
we move forward.
    And this is a time I believe with respect to future 
readiness that as we make this transition and as we back out 
the forces out of Iraq and we look to investments in the future 
and given the economy and the deficit that we have to deal 
with, we have got to do those right in how we modernize into 
the future so that we can still maintain our influence 
throughout the world that we have today.
    So, again, I mentioned the other day to you, Mr. Chairman, 
you can't make them 10 feet tall, because they are not. But you 
also can't disregard them. There is an area there where you 
have to pay very, very close attention to what they are doing 
and why they are doing it and what we will do to maintain our 
capability to influence and maintain our capability, in 
particular in that part of the world.
    Mr. Forbes. Thank you, General.
    One last question from me then I think Ms. Bordallo has one 
final question.
    Admiral, one of the concerns we all have--and you and I 
have talked about this--is with ship maintenance. And we are 
looking at fiscal year 2010. We had a $200 million shortfall. 
We don't have a fiscal year 2011. Fiscal year 2012, we are 
looking about $367 million shortfall.
    At what point, with the all of the surge time that you were 
talking about earlier with the deferred maintenance that we 
have, do we start becoming concerned that we need to have a 
reevaluation of the service life of the vessels that we have?
    Admiral Clingan. Mr. Chairman, thank you for the question. 
We obviously look to share risk across the Navy's entire 
portfolio. And one of the areas that we are reluctant to share 
risk in is the maintenance, because we are absolutely dedicated 
to get our fleet to its expected service life.
    Since 2009 through the 2012 budget, we have added $800 
million to the maintenance program. We have shifted manpower 
from staffs and units back to the ships themselves and to the 
shore-based maintenance so that we can address this. We have 
increased our planning capacity, and we have developed class 
maintenance plans, and within that, individual ship plans.
    So, we have put ourselves on a path which didn't begin this 
year, but, frankly, a year or 2 ago, to make sure that we can 
plan and execute maintenance with more precision and finely 
tuned to get those ships into the condition they need to be.
    That doesn't mean that the shortfall doesn't concern us. 
And as we look at a couple of drivers, the continuing 
resolution will put us behind the expected maintenance and, 
therefore, the material condition of some number of ships I 
mentioned. Twenty-nine of 85 availabilities, if the continuing 
resolution goes through the balance of this year, will not be 
accomplished. That will back wave or backlog into what we had 
in terms of shortfalls for fiscal year 2012.
    And as we look out to the coming years, that was why I 
mentioned earlier the Secretary's funding profile in regard to 
lessening the increase this year and then flattening in the 
out-years was what we thought was a righteous contribution to 
the Nation's deficit challenges.
    If we were to find a decline in the DOD or Navy budget in 
this particular case, we would be concerned again about our 
ability to maintain the ships and get them to service life, 
considering the balance of the portfolio that has equal 
requirements as well.
    Mr. Forbes. Just want to just elaborate on that answer just 
a little bit if I could.
    And then Ms. Bordallo, you have the final question.
    Explain to me, if you would, the impact in terms of lost 
maintenance capabilities in dollars that we would have, if the 
continuing resolution continues.
    And then, help me explain to other members of Congress, who 
tell me the Navy is coming in and telling us that they are 
going to have this enormous problem on the CR, if they don't 
get that--if that continues with maintenance--and that is going 
to horrible--but they are not so worried about the $567 million 
shortfall that was budgeted and the impact that that is going 
to have.
    And maybe I am not articulate on my questioning, but help 
me bridge those gaps.
    Admiral Clingan. Yes, sir. Every budget, of course, is 
built on the preceding year. And so while we might, as we 
manage material readiness risk across our fleet, making sure 
that the ships that we deploy and the aircrafts that we push 
forward are prepared to do the mission in terms of their 
material condition, we have a backlog of some maintenance that 
has accumulated for a variety of reasons over the last 3 years.
    One of them has been, as I mentioned earlier, time. As we 
have operated at surge tempo, both training time and 
maintenance time has been constrained. That has caused us to 
reduce the scope of maintenance done on ships, sometimes to 
forego doing the maintenance all together, and there has been a 
shortfall in the funding of the maintenance as well.
    But that is a manageable risk, as we work just in time to 
get the capacity we need for deployments and for our surge 
obligations, in case of unforeseen circumstances or crises. 
When you then walk into the continuing resolution, it takes 
that risk that we are managing temporarily year to year, and it 
adjusts the calculus.
    As I mentioned, we did not anticipate 29 of 85 
availabilities not being completed. And so that is an 
exacerbation of the problem of 29 ships that didn't get 
maintenance that we expected that would. And then, that, of 
course, for the budget under consideration today, fiscal year 
2012, the $367 million shortfall in availabilities, again, is 
managing risk across a whole number of considerations.
    But that additional 29 plus the availabilities in terms of 
scope and number that we were planning on carrying in 2012 is 
now disproportionately risky. It doesn't mean it has become 
intolerable, but it is carrying more risk than we anticipated. 
And, of course, we would like to mitigate that by some budget 
solution for 2011 and then get on with 2012.
    Mr. Forbes. If you have the opportunity to do it, I don't 
expect you to do it today, but at some point in time, could you 
supply our committee with a list of what maintenance that $560 
million would incorporate? In other words, what are we doing? 
Because everybody's tolerable risk maybe somebody else's 
intolerable risk.
    And we would just like to take a look at that, to get a 
snapshot of what risk we are taking by not doing that 
maintenance. Is that is something that you could do at some 
particular point in time for us for the record?
    Admiral Clingan. I would be pleased to.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Forbes. Thank you, Admiral.
    Now, I would like to recognize the distinguished ranking 
member for her final question.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And, of course, you know coming from Guam and with the 
military buildup you know my questions will be centered to 
General Tryon.
    General, can you address concerns about training 
capabilities in the Asia-Pacific region. The QDR stated, 
``Finally, the United States seeks to develop additional 
opportunities for joint and combined training in the Western 
Pacific that respond to the need for constant readiness of U.S. 
forces to carry out joint operations.''
    So, that is the written statement there. Now, one of my 
concerns, General, I have long expressed, and, of course, Guam 
is looking forward to the 8,600 marines from Okinawa. We are 
welcoming the 3rd Marine Expeditionary Forces. And as you 
probably know, these are the same forces that liberated Guam 65 
years ago, so our people look at it as a homecoming.
    But I have long expressed my concern about the preferred 
alternative location for the firing ranges on Guam. Although 
the problematic agreement has been signed by our governor a 
couple of days ago, there are still concerns about this 
property.
    And I, along with Senator Webb, have urged that DOD to look 
more closely at Tinian for the firing ranges. And that is our 
neighboring island in the Northern Marianas. The Marine 
requirement seemed to have shifted since the beginning of the 
EIS [Environmental Impact Statement] process in 2006, so I 
remain skeptical that the land on Guam needed for the range can 
be leased by the Department of Defense.
    Now, what I wanted to get from you today in a statement for 
the record is--what is it? We have never really received any 
specific information about why is it more advantageous for 
training on Guam versus Tinian. And I would think that more 
virtual urban-style training could be done in Guam and live 
fire in Tinian. Could you comment on that?
    General Tryon. Yes, ma'am. Thanks for your question. 
Obviously, we are still early in the implementation of the AIP 
[Agreed Implementation Plan] process.
    The Commandant's intent in the Pacific is really 
threefold--first, to ensure that the marines are properly 
positioned in the Pacific writ large to respond to whatever 
threat and to support our national security objectives and that 
wherever marines are, that they have the ability to properly 
train in order to be prepared for those contingencies and, last 
but certainly not least, that wherever marines are, that their 
quality of life meets standards and promotes a high state of 
morale and readiness.
    Guam is clearly strategically located in the Pacific region 
and offers unique advantages to forward-deployed forces that 
provide us with a flexible response. We are indeed working with 
the government of Guam right now with respect to ranges and our 
ability to train.
    We have recently entertained, I think as you know, the 
governor of Guam and had the opportunity of taking him down to 
Quantico to show him some of our operational ranges and provide 
him with a perspective as to how we operate our ranges, the 
safety measures and margins that are associated with range 
operation, and how we cohabit side-by-side with the civilian 
communities that adjoin our various bases.
    The Department of the Navy is our lead in conducting the 
dialogue with Guam. The guiding principles that the Under 
Secretary is using in his dialogue is that first and foremost, 
OneGuam, as you know, that we will coordinate projects that 
meet both the Marine Corps' needs as well as the needs of the 
government of Guam in terms of infrastructure and the like; 
Green Guam that will protect the natural resources and promote 
energy efficiency; 24/7 access to Pagat, into Pagat Cave, the 
cultural sites that are on the eastern side of the island; and 
that we will also minimize the footprint that the Marine Corps 
has on the island with the goal of a net negative land 
acquisition strategy.
    At this point in time, we are still stepping through the 
pros and cons of what kind of a range can be constructed 
adjacent to Route 15 on Guam.
    The downside of having a range off the island is a couple 
of things. First, marines would not have immediate access to a 
range or training area, which again goes back to the question 
of time and risk in the event that we have to deploy quickly. 
Field-firing weapons and preparing for a rapid move would 
require close and ready access to ranges.
    Transportation to off-island training creates a time 
requirement. It generates additional operational and 
maintenance expense. And at this point in time, we haven't 
conducted enough of an assessment on any of the off-island--the 
potential off-island training sites to understand whether they 
can even meet our training requirements or not.
    So, it is very much a work in progress, ma'am. And I don't 
want to not answer your question, but I also don't want to make 
a statement that would be conjecture.
    Ms. Bordallo. So, in other words, no definite decisions 
have been made, and as you said it is a work in progress.
    General Tryon. It is, indeed, a work in progress, ma'am.
    Ms. Bordallo. Thank you, General. Thank you.
    Mr. Forbes. Admiral, Generals, we want to thank you for 
your service to our country. Thank you so much for what you do 
to train and protect our men and women in uniform. We really 
appreciate you taking time to be with us today.
    I think I speak for the Ranking Member, our door is open to 
you at any time that there is something you see that we need to 
be doing to help the readiness of our country. We just have an 
open invitation, and we just appreciate your help in helping us 
do that job we need to do.
    Thank you, and this hearing is adjourned.
    [Whereupon, at 12:39 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 10, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 10, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5465.001
    
    [GRAPHIC] [TIFF OMITTED] T5465.002
    
    [GRAPHIC] [TIFF OMITTED] T5465.003
    
    [GRAPHIC] [TIFF OMITTED] T5465.004
    
    [GRAPHIC] [TIFF OMITTED] T5465.005
    
    [GRAPHIC] [TIFF OMITTED] T5465.006
    
    [GRAPHIC] [TIFF OMITTED] T5465.007
    
    [GRAPHIC] [TIFF OMITTED] T5465.008
    
    [GRAPHIC] [TIFF OMITTED] T5465.009
    
    [GRAPHIC] [TIFF OMITTED] T5465.010
    
    [GRAPHIC] [TIFF OMITTED] T5465.011
    
    [GRAPHIC] [TIFF OMITTED] T5465.012
    
    [GRAPHIC] [TIFF OMITTED] T5465.013
    
    [GRAPHIC] [TIFF OMITTED] T5465.014
    
    [GRAPHIC] [TIFF OMITTED] T5465.015
    
    [GRAPHIC] [TIFF OMITTED] T5465.016
    
    [GRAPHIC] [TIFF OMITTED] T5465.017
    
    [GRAPHIC] [TIFF OMITTED] T5465.018
    
    [GRAPHIC] [TIFF OMITTED] T5465.019
    
    [GRAPHIC] [TIFF OMITTED] T5465.020
    
    [GRAPHIC] [TIFF OMITTED] T5465.021
    
    [GRAPHIC] [TIFF OMITTED] T5465.022
    
    [GRAPHIC] [TIFF OMITTED] T5465.023
    
    [GRAPHIC] [TIFF OMITTED] T5465.024
    
    [GRAPHIC] [TIFF OMITTED] T5465.025
    
    [GRAPHIC] [TIFF OMITTED] T5465.026
    
    [GRAPHIC] [TIFF OMITTED] T5465.027
    
    [GRAPHIC] [TIFF OMITTED] T5465.028
    
    [GRAPHIC] [TIFF OMITTED] T5465.029
    
    [GRAPHIC] [TIFF OMITTED] T5465.030
    
    [GRAPHIC] [TIFF OMITTED] T5465.031
    
    [GRAPHIC] [TIFF OMITTED] T5465.032
    
    [GRAPHIC] [TIFF OMITTED] T5465.033
    
    [GRAPHIC] [TIFF OMITTED] T5465.034
    
    [GRAPHIC] [TIFF OMITTED] T5465.035
    
    [GRAPHIC] [TIFF OMITTED] T5465.036
    
    [GRAPHIC] [TIFF OMITTED] T5465.037
    
    [GRAPHIC] [TIFF OMITTED] T5465.038
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 10, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5465.039
    
    [GRAPHIC] [TIFF OMITTED] T5465.040
    
    [GRAPHIC] [TIFF OMITTED] T5465.041
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 10, 2011

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    Admiral Clingan. [The information was not available at the time of 
printing.] [See page 39.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    General Carlisle. No facility changes are anticipated in order to 
implement the repeal of ``Don't Ask, Don't Tell.'' Therefore, there are 
no expected costs. [See page 27.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 10, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. General Casey said at last week's posture hearing that 
the Army's rotational force model allowed them to hedge against 
unexpected contingencies. Is this a reasonable assessment of the state 
of the force? Can the Army rapidly respond to an unplanned event--or 
several should they occur simultaneously? How much strategic risk are 
we accepting with these rotational force models that provide ``just-in-
time'' readiness?
    General Bolger. The Army's rotational force generation model is 
designed to provide strategic flexibility and depth to meet unexpected 
contingencies. The high demand for forces over the past nine years 
consumed the readiness of forces as quickly as it was generated and 
caused the Army to accumulate additional risk due to limited strategic 
depth. Restoring balance to the Army is the critical first step to 
reduce strategic risk. The Army's plan includes a decrease in the 
global demands for forces, full implementation of our force generation 
model (including favorable deployment to dwell ratios), and assured 
access to the Reserve Component. The Army rapidly responds to unplanned 
events through the use of its Surge Force. If there are several events, 
the Army will utilize the Surge Force that is trained/ready for 
contingency missions. The Army has low level strategic risk with our 
supply based force generation model because it generates progressive 
readiness across the Total Force.
    Mr. Forbes. In your opinion, are we ready? Will we be ready for the 
types of threats described by the witnesses at last week's hearing? If 
not, what should we be doing?
    General Bolger. The Army remains a resilient, professional, and 
combat-seasoned force. However, operational demands continue to strain 
our Soldiers, Civilians, Families, equipment, and infrastructure. 
Deployment-to-dwell ratios remain high, putting stress on the All-
Volunteer Force and hampering the Army's ability to train for full 
spectrum operations. The Army's plan to reduce this risk to the force 
is contingent upon achieving sustainable deploy-to-dwell ratios over 
the long-term, maintaining assured access to the Reserve Component, 
adequately providing for Soldiers, Civilians, and Families, and 
receiving reliable, timely, and consistent funding.
    To ensure we are ready and to restore strategic depth to the Army, 
our leadership is working to establish manageable deploy-to-dwell 
ratios. This will not only provide adequate time for Soldiers to 
recover and equipment to be repaired, but also provide the time to 
conduct full spectrum training so we are prepared for the range of 
missions mentioned last week. Maintaining access to the Reserve 
Component will assist us in achieving favorable deploy-to-dwell ratios 
and bring skill sets and experience essential to be successful in these 
complex environments.
    With the demands placed on Soldiers and Families, we must also take 
care to ensure we provide them a quality of life commensurate with the 
quality of their sacrifice. Providing adequate reintegration time and 
assistance, ensuring they have a high quality of life on Army 
installations, and meeting other health and family needs will be 
essential in sustaining an All-Volunteer Force by having Soldiers and 
Families continue to choose to stay Army.
    Effective repair and replacement of equipment after a deployment is 
also vital to maintaining readiness. Currently, the Army spends 
approximately $11 billion each fiscal year on procurement and 
maintenance actions for reset of a redeploying force of approximately 
150,000 Soldiers and their equipment. Because of the large reset 
requirement driven by wartime demands, the pace with which equipment 
can be retrograded and repaired, and the critical need to reconstitute 
our prepositioned stocks of equipment, the Army will continue to 
require supplemental Overseas Contingency Operations (OCO) funding for 
reset for 2 to 3 years upon completion of military operations in Iraq 
and Afghanistan.
    These measures will help ensure we are ready by completing the 
rebalancing of our Army and restoring strategic depth and capacity 
necessary to provide a sustainable flow of trained and ready forces for 
these missions at a tempo that is sustainable for our All-Volunteer 
Force.
    Mr. Forbes. While I understand that a rotational readiness model, 
such as the Army's Force Generation Model, enables ready forces for 
Afghanistan and Iraq, it comes at the expense of the non-deployed 
forces. What are the strategic implications to the readiness of the 
force and our ability to respond to the types of threats the witnesses 
described in the hearing last week?
    General Bolger. The rotational model allows the Army to generate 
readiness to meet both current demands and unforeseen contingencies. 
The Mission Force consists of available pool units that satisfy current 
combatant command demands such as Operations New Dawn, Enduring 
Freedom, Global Response Force, and theater posture on the Korean 
peninsula. In steady-state, the generated will be sufficient to satisfy 
Department of Defense's projected needs. The Surge Force consists of 
selected units at high readiness levels that are available to respond 
to unforeseen threats. The Surge Forces are sized to meet Army 
requirements for the early phases of the Department of Defense's 
operational contingency plans, an additional small scale contingency, 
and homeland security event; additional strategic forces will flow for 
later phases.
    Mr. Forbes. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    General Bolger. The Army has no equities. This is best addressed by 
the United States Navy and the United States Air Force.
    Mr. Forbes. How is Congress to assess the long-term readiness 
requirements for the force when the QDR failed to provide the long-
range, 20-year assessment required by Title 10?
    General Bolger. This question is perhaps better suited for the 
Secretary of Defense or the Under Secretaries of Defense for Policy or 
Acquisition, Logistics, and Technology. However, the 2010 Quadrennial 
Defense Review (QDR) considered the 20-year timeframe directed in 
legislation, but focused the bulk of its efforts about 5-10 years in 
the future where the DoD can begin to make a difference now with near-
term investment decisions. As recent events have demonstrated, our 
ability to clearly and precisely foresee challenges to our national 
security is spotty, at best. The Secretary of Defense recently 
commented that our ability to predict the future is perfect--perfectly 
wrong. So it would make sense for us to explore and consider what 
challenges and opportunities could arise over the 20-year timeframe of 
a QDR, but focus the bulk of our rigorous analysis and professional 
judgment on near-term and mid-term issues. A good amount of our 
Research and Development investments, including Science and Technology, 
should be focused on developing new capabilities to preserve our 
competitive advantage in all domains (air, land, sea, space, and 
cyberspace) throughout the 20-year QDR timeframe.
    Mr. Forbes. Timing and concurrency of events in the analysis must 
be examined by assuming more time between demand on the force, the 
requirements on the force are lowered (i.e., two near-simultaneous 
major combat operations across the globe require a different force 
structure than if the force planners assume the exact same events were 
to occur 30 days apart). In your view, are we ready to respond to 
multiple contingencies occurring in a near-simultaneous fashion?
    General Bolger. Over the past several years, operational demands 
have exceeded the Army's sustainable supply of forces, which has 
challenged the Army's ability to maintain readiness for multiple 
additional contingencies. These current operational demands have 
included Operations New Dawn and Enduring Freedom and other 
requirements such as deterrence posture on the Korean peninsula and the 
Global Response Force. As demand approaches a more sustainable level, 
the Army will build increased capacity to respond to additional 
contingencies. The Army's rotational model accommodates this increased 
capacity through a Surge Force consisting of units in training at 
elevated readiness levels. Another factor that will increase the Army's 
ability to respond to additional unforeseen contingencies is longer 
unit dwell times. Longer dwell times enable units to train for the full 
spectrum of operations rather than focusing on specific missions such 
as counterinsurgency.
    Mr. Forbes. We are all very concerned with development and 
procurement costs of military ships, airplanes and vehicles. However, 
GAO has routinely stated that more than 75% of the total ownership 
costs of weapons systems are associated with the operation and 
sustainment of those assets. What can this subcommittee do to ensure 
that we can afford to operate and maintain the equipment we've already 
paid for?
    General Bolger. The Army has a very structured process to estimate 
life cycle costs to ensure program requirements and resources are 
identified to operate and maintain equipment. These costs are 
continually revisited during program execution and reviews and actions 
are taken to address operation and maintenance costs and requirements. 
These requirements are then reflected in our annual budget submissions. 
Our fleet management strategy/modernization plans consider the 
viability of our fleets in terms of capabilities and conditions and 
result in the proper repair or modernization strategies to support 
readiness requirements, fleet reliability and costs. Additionally, some 
programs like Condition Based Maintenance + provide significant 
enablers (sensors on equipment and condition reporting) to identify 
maintenance conditions and requirements that reduce costs while 
improving fleet availability and readiness.
    Mr. Forbes. What do you feel is DoD's role in investing in 
alternative sources of energy? If so, which types of alternative energy 
(fuels, renewable energy, etc.), and do you believe the DoD is doing 
enough?
    General Bolger. Mr. Chairman, the Army's role in the development of 
alternative energy must be done with the goal of building a robust 
energy portfolio that assures its ability to perform missions around 
the globe. Energy plays an important role in command and control, 
mobility, endurance, resilience and protection capabilities for Army 
forces conducting the range of military operations in often remote 
locations worldwide. Likewise, energy is critical to supporting 
operations such as space, intelligence, information and communications, 
often in more developed but nevertheless vulnerable locations, both at 
home and abroad. In order to ensure that it is able to meet mission 
requirements now and into the future, the Army must pursue alternative 
energy sources, particularly those that can be generated locally or 
regionally to deployed forces. In addition, the Army must pursue 
research, development and fielding of associated technologies such as 
storage and intelligent control/distribution to strengthen its secure 
energy portfolio. Decisions on development of specific technologies, 
and system designs, by the Army must take into account factors of 
mission and operating environment.
    Historically, the Army's pursuit of mission-related capabilities 
has produced technologies that prove useful for broader applications, 
both Government and civilian. Various sensors, communications systems 
and unmanned vehicles are simple but salient examples. Military demand 
also may support industry capability growth to produce better or more 
cost-effective materials or technologies--again benefitting American 
society. In fact, given the growing awareness of energy and water as 
important factors impacting our economy and domestic security, these 
additional benefits could prove significant. However, the Army must 
focus on military capabilities and readiness to guide its investments 
in energy capabilities. While the Army has made important strides to 
reduce its energy footprint, more must and will be done.
    Mr. Forbes. The costs of our weapons systems have risen 
dramatically in the last two decades. And in these current economic 
times, we can't afford to buy the quantities we need at these high 
procurement costs. This, in turn, reduces the economies of scale and 
drives up the cost even further. What recommendations do you have for 
us to break this cycle so we can afford to provide modern, safe, 
effective equipment to our men and women in the military?
    General Bolger. The Army is aggressively pursuing initiatives to 
better and more prudently manage its acquisition process and resources. 
The Secretary of the Army and Army Chief of Staff commissioned an 
unprecedented blue ribbon review last May of the Army's acquisition 
system--a cradle to grave assessment. The Acquisition Review Panel 
submitted its report in February 2011. It included 76 recommendations 
in four broad areas that extend across various Army organizations. 
Those broad areas address requirements generation, risk management, 
organizational alignment, and resources. The Secretary of the Army has 
directed the Assistant Secretary of the Army for Acquisition, Logistics 
and Technology (ASA(ALT)) to assess those recommendations. The ASA(ALT) 
will provide specific recommendations for implementation of those 
portions of the report which are judged to improve the efficiency and 
effectiveness of the Army's Acquisition process.
    However, the Army leadership did not stop there. To ensure that we 
purchased the right equipment to meet the needs of our Soldiers, the 
Army instituted a series of capability portfolio reviews to examine all 
existing Army requirements and terminate programs that we judged to be 
redundant, did not work or were just too expensive. These broad based 
reviews have already helped the Army identify key gaps and unnecessary 
redundancies while promoting good stewardship of our nation's 
resources. We remain committed to using every effort to obtain the 
right systems, supplies and services at the right time and at the most 
cost-effective, streamlined manner.
    Mr. Forbes. Are there other ``out-of-the-box'' ideas we should be 
considering in order to respond to our national defense needs in this 
extremely risky financial time?
    General Bolger. The Army is implementing two innovative initiatives 
that are intended to increase overall force readiness without spending 
more money. The first initiative aims to decrease non-deployables in 
the four highest categories (legal, medical, Theater Specific 
Individual Readiness Training (TSIRT) and separations). The second 
initiative implements policy and procedural changes the Army has 
developed to increase personnel stability in units as they move through 
the Army Force Generation (ARFORGEN) cycle. These changes help to 
improve the timing of assignments, reassignments, separations, and 
extensions to limit any negative impact on unit readiness.
    Mr. Forbes. In fiscal year 2010, Secretary Gates began an 
insourcing initiative to bring contracted functions back into the 
government. While the stated goal was to bring inherently governmental 
work back in house, we also were told that a 40% ``savings'' was being 
budgeted against the insourcing goals. As we look at the fiscal year 
2012 budget request, we see many cases where the Secretary's 
``efficiencies initiative'' are driving reductions in civilian 
personnel authorizations and pay. Are there areas where functions that 
were identified for ``insourcing'' last year are now unfunded due to 
the ``efficiencies initiative''? If so, how much risk is associated 
with these functions or positions being unfunded?
    General Bolger. There are 5,391 un-funded civilian positions which 
were previously scheduled for in-sourcing. Several Army Commands have 
notified Headquarter Department of the Army of a potential for mission 
risk if these positions are not filled. Headquarters Department of the 
Army is evaluating these risks for Secretary of the Army decision. The 
Secretary of the Army has already approved 30 positions in Army Cyber 
Command for in-sourcing due to mission risk.
    Mr. Forbes. I understand that all the services continue to improve 
and increase their ISR capabilities across the various Combatant 
Commands. I am concerned that there is an over-focus of those assets in 
the CENTCOM AOR to the detriment of other AOR's like the Pacific. Can 
both of you describe what their respective service is doing to close 
this gap which poses significant risk, in my estimation, to our forces 
in the Pacific? I think we can all agree, as our independent panel 
testified last week, that it is paramount to our national security to 
continue to have unimpeded access to the Pacific theater and to have 
better intelligence in this AOR.
    General Bolger. The Army has begun to rebalance its Military 
Intelligence Force to institutionalize and enhance core intelligence 
capabilities, invest these capabilities where ``risk-to-force'' is 
greatest and generate sufficient capacity to sustain mission-essential 
support to committed forces through the Army Force Generation process. 
This is in response to the Secretary of Defense's emphasis to rebalance 
Defense programs to institutionalize and enhance current warfighting 
capabilities as well as prepare for future risks and contingencies. The 
Army's Military Intelligence Rebalance Strategy will provide greater 
core intelligence capability at the Brigade Combat Teams and Division/
Corps to mitigate intelligence capability gaps. This strategy will 
inherently improve the Army Intelligence capability for Army units 
supporting the Pacific theater as well as improve Army Intelligence 
support to units deploying in support of other world-wide 
contingencies.
    The Army has not decreased Intelligence, Surveillance, and 
Reconnaissance (ISR) support to U.S. Pacific Command (PACOM) as a 
result of Army ISR support to U.S. Central Command (CENTCOM). The 
command and control of Army ISR and processing, exploitation, and 
dissemination (PED) assets reside within the Combatant Commands. As a 
result, any cross leveling of ISR and PED assets require concurrence 
from both the Combatant Commands and Joint Forces Command. In addition, 
modifications to the Global Force Management Allocation Plan would 
require Secretary of Defense approval. These structural measures have 
allowed the Army to maintain its ISR support at a steady state to 
PACOM.
    The number of Army ISR missions in support of PACOM has remained 
relatively unchanged. The minimal changes that have occurred were 
mission related in nature and not a result of divesting assets in 
support of other Combatant Commands. In addition, the United States 
Army Pacific Command's (USARPAC) ISR PED capacity remains unchanged. 
USARPAC has been able to provide PED support to the other Combatant 
Commands on an ad hoc basis, when capacity permits and at the 
discretion of PACOM. We will continue to support CENTCOM ISR 
requirements without any detriment to PACOM or the other Combatant 
Commands. With the exception of a minimum amount of ISR training assets 
in CONUS to support force generation requirements, all Army ISR assets 
are dedicated in support of the Combatant Commands.

    Mr. Forbes. The FY12 budget request is short of your requirement 
for depot maintenance by more than 16%. What are the risks to 
readiness,--both in the near term and in the long term--of this request 
as the Air Force continues to sustain what was described as a 
``geriatric'' fleet by Ms. Eaglen in last week's testimony?
    General Carlisle. Although we took risk in weapon systems support 
by initially funding it at 80 percent, we identified efficiencies that 
improved funding to 85 percent. Additionally, we are managing near term 
risk and maintaining our warfighting readiness through balanced support 
to our legacy fleet and new aircraft. The 16 percent in unfunded 
requirement risk includes software, sustaining engineering and 
technical orders; however, this is mitigated through enterprise-wide 
prioritization to fund the highest priority systems in the year of 
execution while ensuring a stable depot workload and workforce are 
maintained. The long-term depot maintenance risk is mitigated through 
Full Scale Fatigue Testing and Structural Integrity and Service Life 
Extension Programs which will improve the sustainability of legacy 
aircraft and ensure total force readiness.
    Mr. Forbes. There is little detail in the FY12 budget to inform 
Congress as to how the Air Force plans to sustain the nuclear 
enterprise and to correct the deficiencies of the past. Can you please 
tell us what your plan is in FY12 to ensure that the corrective actions 
that have been taken over the past two years are sufficiently 
resourced?
    General Carlisle. A concerted Air Force focused on reinvigorating 
the nuclear enterprise resulted in significant structure, process and 
cultural change. This focus has revitalized critical aspects of the 
nuclear enterprise resulting in renewed visibility and stringent 
adherence to established nuclear standards, additional personnel to 
recapitalize the nuclear workforce and increased funding to sustain 
legacy systems and infrastructure. In FY12, the Air Force plans to 
continue critical deterrence initiatives including: the future of 
Ground-Based Strategic Deterrence (GBSD), the Common Vertical Lift 
Support Platform (CVLSP), the Air Launched Cruise Missile (ALCM) 
Follow-on, and the F-35A Dual Capable Aircraft (DCA) capability. 
Additionally, the Air Force is initiating the new Penetrating Bomber 
program in FY12. For GBSD, the Air Force is planning to internally 
source funds to develop initial pre-AoA concept characterization and 
technical descriptions. For CVLSP, the Air Force will pursue a full and 
open competition with projected contract award in late FY12. Also, the 
Air Force is analyzing an ALCM Follow-on per Nuclear Posture Review 
guidance and OSD direction. The ALCM Follow-on AoA is planned to be 
complete in FY12. In addition, development efforts for a nuclear 
capable Penetrating Bomber will begin in FY12. F-35A DCA integration 
efforts with the B61-12 are planned to support Extended Deterrence. 
Lastly, Air Force modernization efforts to sustain legacy systems 
including the current ALCM, the current bomber fleet and the Minuteman 
III ICBM will continue in FY12. For the current ALCM, multiple service 
life extension programs will continue to ensure viability through 2030. 
The current bomber fleet and Minuteman III ICBM will be sustained 
through ongoing and future modernization programs. These efforts will 
help ensure that the corrective actions taken over the past two years 
are sufficiently resourced.
    Mr. Forbes. In your opinion, are we ready? Will we be ready for the 
types of threats described by the witnesses at last week's hearing? If 
not, what should we be doing?
    General Carlisle. The Air Force is ready to counter current threats 
to our national interests and committed to meeting future readiness 
challenges. Our long-term readiness concerns focus on aging equipment 
and weapon systems, and the current high operations tempo for our 
people.
    Overseas Contingency Operations have posed constant personnel and 
platform challenges since late 2001. In response, we have modified our 
personnel deployment construct to better support the Combatant 
Commanders while better managing our people, especially those with high 
demand/limited supply skill sets.
    We have balanced and rebalanced our resources--personnel, weapons 
systems, training, and equipment--to remain ready to execute today's 
operations and foster the flexibility required to meet the uncertain 
requirements of tomorrow. It will take constant diligence and the 
support of our national leaders to maintain this balance in a world of 
increasing technology and lethality.
    Mr. Forbes. While I understand that a rotational readiness model, 
such as the Army's Force Generation Model, enables ready forces for 
Afghanistan and Iraq, it comes at the expense of the non-deployed 
forces. What are the strategic implications to the readiness of the 
force and our ability to respond to the types of threats the witnesses 
described in the hearing last week?
    General Carlisle. The Air Force funds the entire force to the same 
readiness level, thereby eliminating tiered readiness and minimizing 
any strategic implications. Similar to the Army's Force Generation 
Model, the Air Force's force generation construct is the Air & Space 
Expeditionary Force, or AEF. As part of the AEF battle rhythm, Air 
Force capabilities enter a ``normal training and exercises'' phase from 
the period immediately following deployment up to the next 
predeployment spin-up time. Included in this phase is a brief period of 
reconstitution to regain mission-ready status following deployments. 
Additionally, the Air Force typically deploys its forces as task-
organized capabilities thereby mitigating lengthy reconstitution times.
    Mr. Forbes. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    General Carlisle. Providing airmen to support the joint fights in 
Iraq and Afghanistan has had no measurable impact on Air Force 
operational readiness. The AF continues to support ground forces in the 
CENTCOM AOR with Joint Expeditionary Taskings (JET) and support 
deployed AF headquarters functions with Individual Augmentees (IA). The 
AF has followed a policy of providing personnel for these JET and IA 
taskings from within our institutional forces (non-operational staffs) 
to reduce impacts on Air Force operational units. All personnel 
assigned to JET or IA taskings are fully qualified for their assigned 
mission prior to deployment.
    JET and IA taskings have trended downward over the past four years, 
in line with the levels of combat forces in CENTCOM. The Air Force 
currently has 7,954 personnel deployed to the region, down from 9,273 
in 2010 and 12,896 in 2009. In 2008 and 2007 the totals were 13,338 and 
13,752, respectively.
    The DoD and AF continue to balance the demands of Iraq, Afghanistan 
and other contingencies such as Japan humanitarian relief and Operation 
UNIFIED PROTECTOR (Libya) with preparations for future conflicts. 
Recent operations have tested the capacity and resolve of our armed 
forces, but our soldiers, sailors, airmen and Marines continue to adapt 
and meet the demands placed upon them.
    Mr. Forbes. How is Congress to assess the long-term readiness 
requirements for the force when the QDR failed to provide the long-
range, 20-year assessment required by Title 10?
    General Carlisle. The 2010 Quadrennial Defense Review set the 
course for the Department of Defense for the next 20 years through its 
articulation of a strategy and investment to further its rebalancing 
and reform efforts. The 2010 QDR Report addresses readiness 
requirements in several respects. For example, the report discusses the 
importance of having continued access to land, air, and sea training 
ranges and operating areas that are needed to maintain DoD's 
operational readiness. In his portion of the report, the Chairman of 
the Joint Chiefs of Staff articulated the requirements associated with 
Joint force readiness across the full range of military operations. 
Specifically, he identified the need for investment in critical 
enablers (such as Special Operations Forces) where shortages have 
persisted, and for investment in expanded electronic warfare and other 
capabilities. He also highlighted resetting the force and replacing 
prepositioned stocks as two crucial readiness requirements. The 
Chairman estimated that full restoration (replacement and repair of 
equipment lost in combat and degraded by wear and tear) would take 
years after OIF and OEF are completed.
    Mr. Forbes. Timing and concurrency of events in the analysis must 
be examined by assuming more time between demand on the force, the 
requirements on the force are lowered (i.e., two near-simultaneous 
major combat operations across the globe require a different force 
structure than if the force planners assume the exact same events were 
to occur 30 days apart). In your view, are we ready to respond to 
multiple contingencies occurring in a near-simultaneous fashion?
    General Carlisle. Yes, the AF is ready to respond to multiple near-
simultaneous contingencies--in fact, we are doing it now. We must 
recognize, however, that the compounding effects of major combat 
operations in Iraq and Afghanistan, and unplanned contingencies such as 
Japan humanitarian relief and Libya, will make it increasingly 
difficult. Recapitalization of combat losses, repair and replenishment 
of equipment, and targeted capability upgrades are still required to 
maintain the levels of readiness our nation demands.
    In the context of combat operations in Iraq and Afghanistan, our 
data shows that the USAF has experienced decreasing readiness since 
2001 due to aging aircraft and high operations tempo. Nonetheless, we 
have been able to match resources with readiness requirements to 
support Combatant Commander needs and conduct combat operations.
    Mr. Forbes. We are all very concerned with development and 
procurement costs of military ships, airplanes and vehicles. However, 
GAO has routinely stated that more than 75% of the total ownership 
costs of weapons systems are associated with the operation and 
sustainment of those assets. What can this subcommittee do to ensure 
that we can afford to operate and maintain the equipment we've already 
paid for?
    General Carlisle. The Air Force shares your concern about the 
affordability of operating and maintaining our weapon systems. We 
continue to identify efficiencies and cost reduction initiatives to 
reduce total ownership cost. For example, the Air Force conducts 
Business Case Analyses to determine the most affordable sustainment 
approach for many of our weapon systems. Implementation can require 
upfront investment that will ultimately result in overall cost 
reduction. Your funding support for these investments as well as 
funding for tech data and sustaining engineering studies (where 
warranted) will drive more affordable sustainment for our Air Force 
programs.
    Mr. Forbes. What do you feel is DoD's role in investing in 
alternative sources of energy? If so, which types of alternative energy 
(fuels, renewable energy, etc.), and do you believe the DoD is doing 
enough?
    General Carlisle. From the Air Force perspective, it is of vital 
importance to have the energy available necessary to accomplish our 
global mission to fly fight and win in air, space, and cyberspace, and 
we are working to further advance our energy security posture. For the 
Air Force, energy security means having assured access to reliable 
supplies of energy and the ability to protect and deliver sufficient 
energy to meet operational needs. This includes ensuring critical 
assets have the power to operate in the event of a natural disaster or 
attack, and improving our energy security posture by providing domestic 
alternatives to foreign oil.
    Although not without challenges, alternative sources of energy and 
fuels present opportunities for the Air Force to increase its supply of 
energy and improve its energy security posture. The Air Force must 
consider all sources of energy, renewable, alternative and even 
traditional fossil fuels to improve our energy security and expand our 
energy portfolio. This includes evaluating all sources. However, the 
Air Force will generally be a consumer, and not a producer, of energy 
and fuel.
    We are in the process of certifying our aircraft to fly on 
synthetic and bio-based fuels blended with traditional JP-8. The 
certification process expands the types of fuel our aircraft can use. 
Once the commercial market is ready, having the ability to use non-
traditional aviation fuels provides us with an improved energy security 
posture and increased protection from price fluctuations resulting from 
foreign oil sources. The Air Force is continuing to review and evaluate 
potential alternative aviation fuel candidates beyond the synthetic and 
biofuel-based fuel blends.
    Regarding renewable energy for our facilities, we recognize that 
there is not a ``one size fits all'' solution and that the economics 
will dictate our approach. However, we are open to consider long-term 
business arrangements with companies who are ready to build, operate, 
and maintain renewable energy projects to generate electricity, heat, 
or other positive energy benefits for our air bases. In this regard, we 
are not viewing nor are we wed to ``inside the installation boundary'' 
as the only option.
    Mr. Forbes. The costs of our weapons systems have risen 
dramatically in the last two decades. And in these current economic 
times, we can't afford to buy the quantities we need at these high 
procurement costs. This, in turn, reduces the economies of scale and 
drives up the cost even further. What recommendations do you have for 
us to break this cycle so we can afford to provide modern, safe, 
effective equipment to our men and women in the military?
    General Carlisle. Yes, we agree. The Secretary and Chief of Staff 
of the Air Force recognized the importance of Recapturing Acquisition 
Excellence (Air Force Strategic Plan--Priority 5) and implemented the 
Acquisition Improvement Plan (AIP). A combination of the AIP's 33 
completed improvement actions resulted in a stronger workforce, clearly 
defined requirements, incremental development strategies, predictable 
schedules and budgetary needs; all directed at improving the ability to 
provide industry with clear and concise requests for proposal enabling 
better buying power for the Air Force.
    Specifically, two AIP initiative areas ``Improve Requirements 
Generation Process'' and ``Instill Budget and Financial Discipline'' 
made significant improvements to help the Air Force ``Recapture 
Acquisition Excellence''. On the AIP Initiative 2, ``Improve 
Requirements Generation Process'' requires the Service Acquisition 
Executive, and when applicable, the Air Force Materiel Command 
Commander or Air Force Space Command Commander, in conjunction with the 
Air Force Requirements Oversight Council, to attest that the 
acquisition community can fulfill the Capabilities Development Document 
requirements. On AIP Initiative 3, ``Instill Budget and Financial 
Discipline'' improves cost estimating process (budgeting programs to a 
confidence level typically 55-65%), program baseline guidance, and 
funding stability.
    Today, the Air Force continues to implement Dr Carter's 23 directed 
``Better Buying Power'' initiatives targeted to reducing expenses 
allocated to overhead and support functions. The Air Force's goal is to 
continue improvements to redirect savings to modernization and 
readiness programs for our warfighters without jeopardizing product 
delivery.
    Mr. Forbes. Are there other ``out-of-the-box'' ideas we should be 
considering in order to respond to our national defense needs in this 
extremely risky financial time?
    General Carlisle. The United States Air Force continues to assess 
how to best meet national defense needs. As one way to develop and 
study ``out of the box'' ideas we conduct two Title 10 war games to 
determine what capabilities and force structure USAF should possess in 
near and far term. Unified Engagement looks at how to better work with 
partner nations through the full spectrum of conflict 12 to 15 years in 
the future; while the Future Capabilities Game looks 20 to 25 years 
into the future to what the broad range of technology will be, and how 
that may influence and affect the future of the Air Force. These war 
games provide us the ability to explore and test alternative force 
structures that better address future challenges, using affordable, 
technically feasible and operationally balanced platforms across all AF 
missions. The war game results are used alongside Science and 
Technology investments to continue to look for ``out-of-the-box'' ideas 
to respond to our national defense needs.
    Mr. Forbes. In fiscal year 2010, Secretary Gates began an 
insourcing initiative to bring contracted functions back into the 
government. While the stated goal was to bring inherently governmental 
work back in house, we also were told that a 40% ``savings'' was being 
budgeted against the insourcing goals. As we look at the fiscal year 
2012 budget request, we see many cases where the Secretary's 
``efficiencies initiative'' are driving reductions in civilian 
personnel authorizations and pay. Are there areas where functions that 
were identified for ``insourcing'' last year are now unfunded due to 
the ``efficiencies initiative''? If so, how much risk is associated 
with these functions or positions being unfunded?
    General Carlisle. The AF is presently conducting a highly focused, 
strategic review of the entire AF civilian workforce. The goal is to 
ensure the AF executes this reduction strategically and in a manner 
that meets all mission requirements while continuing to support our 
Airmen and their families. The AF will review all Core Functions to 
balance risk, while satisfying our efficiency targets. While the total 
AF reduction amount will remain unchanged, the program specific 
adjustments will be determined by our strategic review and programmed 
during our FY13 POM submission with our actual execution plan.
    All ideas are on the table and the final distribution will be 
approved by the CSAF and SECAF. Again, the resulting decisions will 
adjust FY12 and inform the FY13 POM.
    Mr. Forbes. I understand that all the services continue to improve 
and increase their ISR capabilities across the various Combatant 
Commands. I am concerned that there is an over-focus of those assets in 
the CENTCOM AOR to the detriment of other AOR's like the Pacific. Can 
both of you describe what their respective service is doing to close 
this gap which poses significant risk, in my estimation, to our forces 
in the Pacific? I think we can all agree, as our independent panel 
testified last week, that it is paramount to our national security to 
continue to have unimpeded access to the Pacific theater and to have 
better intelligence in this AOR.
    General Carlisle. In addition to currently fielded Intelligence, 
Surveillance and Reconnaissance capabilities, the Navy is developing 
complementary capabilities above, on and below the surface of the sea 
to provide global ISR support to each Combatant Commander, including 
Pacific Command. Across all three realms Navy is implementing a family 
of systems approach to employ more sensors and increase time on 
station. Equipped with plug-and-play sensors utilizing automated 
processing, these systems will provide focused collection with reduced 
manpower.
    Current airborne ISR aircraft, such as the EP-3 and P-3, continue 
to deploy in support of PACOM mission requirements. Successful P-3 
redstripe recovery efforts will increase the P-3 AIP presence in the 
PACOM AOR to 12 deployed aircraft in Dec 2011. Development of a new 
generation of Unmanned Aerial Systems (Fire Scout, Broad Area Maritime 
Surveillance (BAMS), Medium Range Maritime (MRMUAS), and Unmanned 
Carrier-Launched Airborne Surveillance and Strike (UCLASS)) continues 
and will provide both land and sea-based capability with greater 
persistence and area coverage than current platforms. The Navy will 
deploy Fire Scout on the Littoral Combat Ship as that class comes on 
line and deploys to PACOM in the FY13 timeframe. Also, the Navy will 
establish the first of two BAMS UAS orbits in the PACOM AOR in FY17.
    The Navy is also funding additional surface assets that provide 
critical ISR to fleet assets, including investment in Surveillance 
Towed Array Sonar System (SURTASS) equipped ships that will support the 
Pacific theater. Additionally, the Navy continues to develop Unmanned 
Undersea Vehicles (UUVs). UUVs will expand access into areas that are 
inaccessible or hazardous to manned platforms as well as fill capacity 
gaps.

    Mr. Forbes. Energy has been repeatedly highlighted as an area that 
could impact future military readiness based on availability of supply. 
RAND recently published a report regarding alternative fuels. Some of 
the conclusions suggested that the alternative fuel industry is 
immature, could not scale up to make an appreciable difference as a 
domestic alternative, and recommended that DoD not invest in this 
market.
    A. Could you please comment on that report?
    B. Can you also provide your opinion whether you believe DoD has a 
role in the development and procurement of alternative fuels?
    Admiral Clingan. A. The RAND Corporation study accurately states 
that the Department of the Navy's switch to biofuels, in and of itself, 
will not reduce the nation's total energy consumption by a significant 
margin. However, the RAND Report was not well researched and did not 
take into account the recent research and development advances in the 
biofuels technologies. RAND stated in their report that the Fischer-
Tropsch coal-to-liquid/biomass-to-liquid fuels are the most promising 
near-term options for meeting the Department of Defense's needs cleanly 
and affordably. Currently, there are no Fischer-Tropsch plants here in 
the United States. Additionally, under the guidelines of the Energy 
Independence and Security Act (EISA) of 2007, Section 526, any 
replacement fuel has to have a greenhouse gas emission profile less 
than petroleum. In order to meet this guideline, any Fischer-Tropsch 
coal-to-liquid plant would have to have carbon capture and 
sequestration incorporated into this overall process. While there is 
important carbon capture and sequestration research and development 
ongoing at DOE, there has not been any carbon capture and sequestration 
process built to commercial scale in the United States. In summary, due 
to the EISA 2007, Section 526 guidelines and the cost prohibitive 
carbon capture and storage process, we feel that the Fischer-Tropsch 
coal-to-liquid/biomass-to-liquid fuels are not the most promising near-
term option for meeting the Department of Defense's needs cleanly and 
affordably.
    While the use of alternative fuels can contribute toward 
guaranteeing our energy supplies, reducing our operational risks, and 
during volatile upward price swings in petroleum, could represent 
additional cost savings, the Department of the Navy's energy strategy 
has not been limited to alternative fuels. We have aggressively adopted 
proven energy efficient applications and practices commonly found in 
the commercial sector. We have funded both science and technology/
research and development projects in pursuit of increased energy 
efficiency since these projects can potentially and directly contribute 
to the combat capability of our operating forces by reducing our energy 
consumption both afloat and ashore, and by achieving significant cost 
savings.
    B. The Navy prefers to see itself as an ``early adopter'' of 
available biofuels. The military has often led in the development of 
new technologies where there was a compelling military use, even if the 
civilian use was ultimately greater (ex. GPS, the Internet). The 
operational use of alternative fuels by the Department of the Navy will 
be hastened by collaborating with federal agencies and private industry 
at every step of the research, development, and certification process. 
The alternative fuel program establishes the Department of the Navy as 
an early adopter for investors in a nascent industry that could 
significantly enhance energy security, and thereby national security, 
in the mid- to long-term. By positioning itself as an early adopter by 
testing available biofuels and certifying them ``fit for use across our 
major platforms and leveraging test and certifications accomplished by 
the other services that meets our specifications'', the Navy is better 
poised to reap the following benefits:

    <bullet>  Cost savings. Increasing our use of alternative energy 
sources helps us achieve a level of protection from energy price 
volatility. For every $10 increase in the cost of a barrel of oil, the 
Navy spends an additional $300 million dollars a year. Operating more 
efficiently saves money by reducing the amount we spend for fuel. 
Savings can be reinvested to strengthen combat capability. The cheapest 
barrel of fuel afloat or kilowatt-hour ashore is the one we do not have 
to use.

    <bullet>  Guaranteed Supply. Our reliance on energy can be 
exploited by potential adversaries. Efficiency and alternatives may be 
our best countermeasure. Energy efficiency increases our mission 
effectiveness by expanding our range and endurance, and reducing our 
need for logistics support. Efficiency improvements minimize 
operational risks of that logistics tether, saving time, money, and 
lives. Alternative fuels provide the Navy an `off-ramp from petroleum,' 
mitigating the risk to a volatile and ever more expensive petroleum 
market.

    <bullet>  Fossil Fuel Dependence. The Navy recognizes that our 
dependence on fossil fuels and foreign sources of oil makes us more 
susceptible to price shocks, supply shocks, natural and man-made 
disasters, and political unrest in countries far from our shores.

    <bullet>  Combat Capability. Making our ships and aircraft more 
efficient improves their fuel economy. We can increase the days between 
refueling for our ships, improving their security and combat 
capability. We can also extend the range of our aircraft strike 
missions, allowing us to launch our aircraft farther away from combat 
areas. Increasing our efficiency and the diversity in our sources of 
fuel improves our combat capability strategically and tactically.

    Mr. Forbes. There has been significant discussion of energy as an 
issue that may impact military readiness particularly regarding assured 
access to oil. The Arctic is said to contain nearly 20% of the world's 
untapped oil, natural gas, and mineral resources; estimates include 
over 400 billion barrels of undiscovered oil and gas and mineral 
deposits worth over $1 trillion.

    <bullet>  a. While the United States is one of eight Arctic nations 
with sovereign claims, do you feel it is in our national security 
interest to be more proactive in this region due to the prospect of oil 
in this region?

    <bullet>  b. What are the consequences if the nation fails to act?

    <bullet>  c. What is the military's role in this region, and is the 
DoD prepared?

    Admiral Clingan. a. Navy's national security responsibilities in 
the Arctic are similar to those in any other maritime domain. Although 
the current potential for conflict in the Arctic appears to be low, 
Navy's core responsibility is to defend the United States from attack 
upon its territory at home and to secure its interests abroad. In this 
regard, the nation's ability to defend its interests and avoid 
potential crises and conflicts in the Arctic would be significantly 
enhanced if the United States joined the other seven Arctic littoral 
states and acceded to the United Nations Convention of the Law of the 
Sea. While sea ice loss is increasing access to energy and mineral 
deposits in the region, the rate at which these deposits have been 
extracted has not dramatically increased. Additionally, the Arctic will 
continue to be ice-covered during the winter months through the next 
several decades, further complicating resource extraction. Navy is 
proactively addressing cooperative partnerships in the Arctic to 
promote safety, stability, and security as detailed in the Navy's 
Strategic Objectives for the Arctic.
    b. Because the U.S. is an Arctic nation and the Arctic is primarily 
a maritime domain, the U.S. Navy has an obligation to be prepared for 
the changes that are occurring in the region. Failure to prepare for 
the increasing access to the Arctic will limit our overall ability to 
respond to security incidents and challenges.
    c. Arctic-related security requirements stem from increased human 
activity in the region that can invite crises over resources, 
territorial boundaries or excessive claims. While the Navy has operated 
in the Arctic on a limited basis for decades, we must balance limited 
resources with ever-expanding global requirements. Navy's Task Force 
Climate Change is carefully reviewing the right capabilities at the 
right cost at the right time to meet national requirements for the 
Arctic, as they potentially represent a considerable commitment of 
funds during a resource-constrained period.
    Mr. Forbes. In your opinion, are we ready? Will we be ready for the 
types of threats described by the witnesses at last week's hearing? If 
not, what should we be doing?
    Admiral Clingan. The readiness of the Navy to provide the 
warfighting resources needed by our Combatant Commanders is a function 
of capability, capacity and proficiency across the full range of naval 
missions. Achieving the required levels of each requires a fine balance 
between acquiring new warfighting capabilities to address emerging 
threats; modernizing existing capabilities to keep them relevant; 
sustaining systems and platforms so that they function properly until 
the end of their expected service life; and training our personnel to 
guarantee they can employ the systems and platforms effectively in a 
combat environment. The Navy has succeeded in ensuring our forward 
deployed forces are prepared to accomplish their planned missions. 
Additionally, the Navy continues to develop the future capabilities and 
capacity necessary to support the National Military Strategy in a 
security environment increasingly characterized by sophisticated anti-
access/area denial (A2/AD) systems. The Department of Navy in concert 
with the Department of Air Force, has developed an Air Sea Battle 
Concept and associated initiatives that outline necessary enhancements 
across Doctrine, Organization, Training, Materiel, Leadership, 
Personnel, and Facilities (DOTMLPF) to address the A2/AD threat. The 
President's FY12 Budget request addresses these initiatives 
appropriately in an implementation effort that will span several years.
    Mr. Forbes. While I understand that a rotational readiness model, 
such as the Army's Force Generation Model, enables ready forces for 
Afghanistan and Iraq, it comes at the expense of the non-deployed 
forces. What are the strategic implications to the readiness of the 
force and our ability to respond to the types of threats the witnesses 
described in the hearing last week?
    Admiral Clingan. The Navy has been forward deployed since its 
inception to protect our national interests abroad and to rapidly 
respond to crises with mission tailored forces. While some forward 
presence has been provided by units stationed overseas, historically 
most has been generated by a rotational model from the continental 
United States. The current model, termed the Fleet Response Plan, is 
comprised of phases: Maintenance; Training (Basic, Integrated); and 
Sustainment, during which an overseas deployment typically occurs. 
Properly resourced and managed, the Fleet Response Plan provides 
maintenance opportunities to ensure the systems and platforms are 
effective against extant threats throughout their expected service 
life; training across the full range of naval operations to ensure 
personnel can succeed in missions from humanitarian assistance to high-
end warfare against a peer rival; 6-7 months of forward deployed time 
each cycle to support the Combatant Commanders; and a period following 
deployment when a unit's high readiness is sustained to enable surging 
forward in response to crises. The President's FY12 Budget request 
provides sufficient resources to meet the Combatant Commander's most 
critical requirements and to sustain a relevant Navy into the future.
    Mr. Forbes. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    Admiral Clingan. The long-term use of Sailors to meet ground force 
requirements in Iraq and Afghanistan has been necessary to address the 
evolving needs of the joint force as these conflicts have progressed 
through various phases. The Navy provides over half of its IA support 
in core skill areas, such as cargo handling, airlift support, and 
SeaBees, with approximately 5,500 serving in these ``core'' missions. 
Navy also provides approximately 4,700 Sailors for provincial 
reconstruction, detainee operations, civil affairs, customs inspection, 
and a variety of other ``non-core'' missions. The joint sourcing 
process to meet both ``core'' and ``non-core'' requirements is 
deliberate and is currently focused on reducing IA requirements without 
unduly increasing the risk to mission success.
    Navy's FY12 end strength anticipates a phased reduction in IA 
demand in Iraq and Afghanistan. Should IA demand remain at current 
levels, or increase over time, we will be challenged to meet manning 
requirements for the Fleet. The Navy continues to size, shape, and 
stabilize our force through a series of performance-based measures 
designed to retain the skills, pay grades, and experience mix necessary 
to meet current and future requirements.
    Mr. Forbes. How is Congress to assess the long-term readiness 
requirements for the force when the QDR failed to provide the long-
range, 20-year assessment required by Title 10?
    Admiral Clingan. The most recent Quadrennial Defense Review focused 
on two objectives: to further rebalance the capabilities of the Armed 
Forces and institutionalize successful wartime innovations to better 
enable success in today's wars while ensuring our forces are prepared 
for a complex future; and to reform how the department does business. 
In conjunction with the completion of the QDR, the Deputy Secretary of 
Defense submitted the long-range plans for the construction of Naval 
vessels and the procurement of aircraft for the Navy and Air Force. 
These plans reflect the best effort of the Department of Defense to 
address the difficult planning challenge of forecasting requirements 
and procurement for a thirty year time frame. These products provide 
Congress a basic foundation for the assessment of the long-term 
readiness requirements of the force. Additional detail regarding the 
QDR is more appropriately addressed by the Office of the Secretary of 
Defense.
    Mr. Forbes. Timing and concurrency of events in the analysis must 
be examined by assuming more time between demand on the force, the 
requirements on the force are lowered (i.e., two near-simultaneous 
major combat operations across the globe require a different force 
structure than if the force planners assume the exact same events were 
to occur 30 days apart). In your view, are we ready to respond to 
multiple contingencies occurring in a near-simultaneous fashion?
    Admiral Clingan. [The information was not available at the time of 
printing.]
    Mr. Forbes. We are all very concerned with development and 
procurement costs of military ships, airplanes and vehicles. However, 
GAO has routinely stated that more than 75% of the total ownership 
costs of weapons systems are associated with the operation and 
sustainment of those assets. What can this subcommittee do to ensure 
that we can afford to operate and maintain the equipment we've already 
paid for?
    Admiral Clingan. The combined President's FY12 Budget request 
baseline and OCO budget submissions represent the best balance of risk 
and available resources across the Navy portfolio. The Navy appreciates 
the subcommittee's continuing support and believes both ship and 
aviation maintenance will be best served by supporting the President's 
FY12 Budget request. A comprehensive maintenance strategy is essential 
to minimizing the total ownership cost (TOC) of Navy platforms and to 
ensuring that these assets reach their expected service life. Crucial 
to executing any maintenance strategy is a clear understanding of the 
current condition of each asset and a detailed plan for properly 
maintaining and logistically supporting the equipment.
    Submarines and aircraft carriers have well defined engineering 
processes that closely manage maintenance and repair work. Navy 
investments in the past several budget cycles in the Surface 
Maintenance Engineering Planning Program (SURFMEPP) and enhanced 
assessments of surface ships are providing Navy maintenance planners 
with greater insight on the maintenance and repair requirements and are 
facilitating refined ship life cycle management.
    For aircraft, each Type/Model/Series of Naval aircraft have a 
rigorous sustainment construct that relies on a robust Fleet Support 
Team (FST) of engineers, logisticians, and other key aviation subject 
matter experts that utilize the concept of RCM (Reliability Centered 
Maintenance) to continuously monitor and improve the maintenance of in-
service aircraft. The President's FY12 Budget request increased 
emphasis on continuing these key aviation FST functions.
    Mr. Forbes. What do you feel is DoD's role in investing in 
alternative sources of energy? If so, which types of alternative energy 
(fuels, renewable energy, etc.), and do you believe the DoD is doing 
enough?
    Admiral Clingan. The Department of the Navy (DON) has set two 
priorities that illustrate its role in investing in alternative sources 
of energy: Energy Security and Energy Independence. Energy Security is 
achieved by utilizing sustainable sources that meet tactical, 
expeditionary, and shore operational requirements and force sustainment 
functions, and, having the ability to protect and deliver sufficient 
energy to meet operational needs. Energy Independence is achieved when 
Naval forces rely only on energy resources that are not subject to 
intentional or accidental supply disruptions. As a priority, Energy 
Independence increases operational effectiveness by making Naval forces 
more energy self-sufficient and less dependent on vulnerable energy 
production and supply lines.
    To demonstrate the feasibility of utilizing alternative sources of 
energy for tactical purposes, we have flown an F/A-18 Hornet on a 50/50 
blend of JP-5/camelina fuel; operated a Riverine Command Boat (RCB-X) 
on a 50/50 blend of F-76/algae fuel; and test flown a Seahawk 
helicopter on a 50/50 blend of JP-5/camelina fuel. DON also 
commissioned the USS Makin Island that utilizes a gas turbine engine 
and electric auxiliary propulsion system, which leads to increased fuel 
efficiency. Like the other Services in DoD, DON leverages many 
different types of alternative energy solutions based upon various 
installations' geographic location, natural resources, and available 
technology that includes solar, wind, geothermal, and waste to energy 
applications. We have plans to install over 100 MW of solar power 
through the FYDP and are currently conducting 22 anemometer (wind) 
studies. In our Expeditionary Forward Operating Bases, we are using 
flexible solar panels to recharge batteries and light the insides of 
tents with energy efficient LED lighting. These are just a few examples 
of the different types of alternative energy sources that DON is 
currently using.
    Lastly, the Secretary of the Navy has set forth five energy goals 
to reduce the Department of the Navy's overall consumption of energy, 
decrease its reliance on petroleum and significantly increase its use 
of alternative energy. DON is committed to thoughtfully investing in 
alternative sources of energy for the future.

    The Secretary of the Navy's Energy Goals:

    1. Increase Alternative Energy Use DON-Wide: By 2020, 50% of total 
DON energy consumption will come from alternative sources.

    2. Increase Alternative Energy Ashore: By 2020, at least 50% of 
shore-based energy requirements will come from alternative sources; 50% 
of DON installations will be net-zero.

    3. Reduce Non-Tactical Petroleum Use: By 2015, DON will reduce 
petroleum use in the commercial fleet by 50%.

    4. Sail the ``Great Green Fleet'': DON will demonstrate a Green 
Strike Group in local operations by 2012 and sail it by 2016.

    5. Energy Efficient Acquisition: Evaluation of energy factors will 
be mandatory when awarding contracts for systems and buildings.

    Mr. Forbes. The costs of our weapons systems have risen 
dramatically in the last two decades. And in these current economic 
times, we can't afford to buy the quantities we need at these high 
procurement costs. This, in turn, reduces the economies of scale and 
drives up the cost even further. What recommendations do you have for 
us to break this cycle so we can afford to provide modern, safe, 
effective equipment to our men and women in the military?
    Admiral Clingan. To partially address the historic cost growth in 
weapons systems, the Navy has strengthened acquisition policy to 
improve program oversight, control requirements, and more effectively 
monitor contractor performance through acquisition program and 
portfolio reviews of acquisition programs and the supplier base. A 
Department of Navy instruction established acquisition governance 
comprised of a 2 pass, 6 Gate review that has achieved closer 
coordination between the Assistant Secretary of the Navy for Research, 
Development and Acquisition, Chief of Naval Operations and Commandant 
of the Marine Corps. It also provided enterprise constructs to afford 
the opportunity to better understand and control costs, including 
operations and sustainment costs.
    Navy has engaged in vigorous control of requirements growth and 
changes with the establishment of annual Configuration Steering Boards 
within the program review and oversight process. The Configuration 
Steering Board requires programs to provide business case analysis and 
tradeoff discussions to stringently control adjustments to 
requirements.
    Process improvement initiatives are also being pursued in 
accountability, acquisition workforce management, and efficiencies as 
described in the Under Secretary of Defense for Acquisition, Technology 
and Logistics memo titled ``Better Buying Power, Guidance for Obtaining 
Greater Efficiency and Productivity in Defense Spending'', dated 14 SEP 
2010.
    Complementary to these initiatives, Navy recommends stable funding 
for Programs throughout their development and economic quantity/multi-
year procurements. These disciplined actions, which provide industry 
with steady workforce projections and encourage industry to invest in 
capital improvements, break the noted cycle and have a proven record of 
success.
    Mr. Forbes. Are there other ``out-of-the-box'' ideas we should be 
considering in order to respond to our national defense needs in this 
extremely risky financial time?
    Admiral Clingan. From intense analysis of anti-access and area 
denial challenges to emerging energy technologies, new ideas are 
constantly being generated in order to ensure the Navy continues to 
perform its roles and missions in the evolving security and economic 
environments.
    The Navy has a robust process for inspiring, developing and 
implementing new concepts and approaches in response to changing 
defense needs. The Navy's concept generation and concept development 
(CGCD) program provides a collaborative approach and structure for 
developing new strategic and operational concepts that address current 
and future challenges, position the service to seize opportunities, and 
serve to shape the Navy across the Doctrine, Organization, Training, 
Materiel, Leadership, Education, Personnel, and Facilities (DOTMLPF) 
spectrum. The process includes vetting and validating new ideas through 
analytical studies, workshops, experimentation, Naval War College war 
games, and, as required, Fleet level live force experiments and 
exercises.
    This process capitalizes on a strategic top-down approach, while 
enabling full and seamless integration with joint and coalition 
operations and requirements. The President's FY12 budget submission 
resources a variety of ideas across Doctrine, Organization, Training, 
Materiel, Leadership, Personnel, and Facilities (DOTMLPF) that have 
been vetted and are mature enough to merit investment.
    Mr. Forbes. In fiscal year 2010, Secretary Gates began an 
insourcing initiative to bring contracted functions back into the 
government. While the stated goal was to bring inherently governmental 
work back in house, we also were told that a 40% ``savings'' was being 
budgeted against the insourcing goals. As we look at the fiscal year 
2012 budget request, we see many cases where the Secretary's 
``efficiencies initiative'' are driving reductions in civilian 
personnel authorizations and pay. Are there areas where functions that 
were identified for ``insourcing'' last year are now unfunded due to 
the ``efficiencies initiative''? If so, how much risk is associated 
with these functions or positions being unfunded?
    Admiral Clingan. In-sourcing is one of the tools the Navy uses to 
ensure the appropriate mix of military, civilian, and contractor 
employees is available to accomplish its roles and missions. To meet 
FY12 budget expectations, in-sourcing priorities were re-evaluated, 
along with contractors overall, as part of a holistic workforce 
balancing effort.

    Mr. Forbes. In the past year, the USMC successfully demonstrated 
its Experimental Forward Operating Base (ExFOB) which incorporates 
solar power technologies with a unit currently deployed to Afghanistan. 
That initiative had resounding success and buy-in from the individuals 
in the unit.

    <bullet>  Will the USMC continue the ExFOB?

    <bullet>  If so, will you incorporate new technologies and redeploy 
with future units?

    <bullet>  What is the FY12 PB request to fund these efforts?

    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. In your opinion, are we ready? Will we be ready for the 
types of threats described by the witnesses at last week's hearing? If 
not, what should we be doing?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. While I understand that a rotational readiness model, 
such as the Army's Force Generation Model, enables ready forces for 
Afghanistan and Iraq, it comes at the expense of the non-deployed 
forces. What are the strategic implications to the readiness of the 
force and our ability to respond to the types of threats the witnesses 
described in the hearing last week?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. How has the long-term use of sailors and airmen to meet ground 
force requirements impacted the readiness of the Navy and Air Force? In 
your view, why has the DOD not been able to right-size its force 
structure to ensure that taskings for CENTCOM are filled with the best 
qualified individual for the task and not a surrogate from a different 
service with different core competencies?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. How is Congress to assess the long-term readiness 
requirements for the force when the QDR failed to provide the long-
range, 20-year assessment required by Title 10?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. Timing and concurrency of events in the analysis must 
be examined by assuming more time between demand on the force, the 
requirements on the force are lowered (i.e., two near-simultaneous 
major combat operations across the globe require a different force 
structure than if the force planners assume the exact same events were 
to occur 30 days apart). In your view, are we ready to respond to 
multiple contingencies occurring in a near-simultaneous fashion?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. We are all very concerned with development and 
procurement costs of military ships, airplanes and vehicles. However, 
GAO has routinely stated that more than 75% of the total ownership 
costs of weapons systems are associated with the operation and 
sustainment of those assets. What can this subcommittee do to ensure 
that we can afford to operate and maintain the equipment we've already 
paid for?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. What do you feel is DoD's role in investing in 
alternative sources of energy? If so, which types of alternative energy 
(fuels, renewable energy, etc.), and do you believe the DoD is doing 
enough?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. The costs of our weapons systems have risen 
dramatically in the last two decades. And in these current economic 
times, we can't afford to buy the quantities we need at these high 
procurement costs. This, in turn, reduces the economies of scale and 
drives up the cost even further. What recommendations do you have for 
us to break this cycle so we can afford to provide modern, safe, 
effective equipment to our men and women in the military?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. Are there other ``out-of-the-box'' ideas we should be 
considering in order to respond to our national defense needs in this 
extremely risky financial time?
    General Tryon. [The information was not available at the time of 
printing.]
    Mr. Forbes. In fiscal year 2010, Secretary Gates began an 
insourcing initiative to bring contracted functions back into the 
government. While the stated goal was to bring inherently governmental 
work back in house, we also were told that a 40% ``savings'' was being 
budgeted against the insourcing goals. As we look at the fiscal year 
2012 budget request, we see many cases where the Secretary's 
``efficiencies initiative'' are driving reductions in civilian 
personnel authorizations and pay. Are there areas where functions that 
were identified for ``insourcing'' last year are now unfunded due to 
the ``efficiencies initiative''? If so, how much risk is associated 
with these functions or positions being unfunded?
    General Tryon. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. When Secretary of Defense Gates first accepted his 
post under the Bush Administration, he called for a 12-months boots on 
the ground policy to sustain dwell time goals. To date, home station 
mobilization and demobilization continues to be challenge for our men 
and women in the Guard and Reserves. I believe it improves readiness as 
well as morale and welfare when a soldier can deploy and demob from 
home station. Can you detail what efforts the Army has taken to achieve 
this policy objective of Secretary Gates? What can Congress do to help 
facilitate and expedite this matter?
    General Bolger. The Army utilizes a rotational force generation 
readiness model as a core process to achieve the SecDef 12-months boots 
on the ground policy and is actively engaged with making decisions in 
the Army's Campaign Plan for First Army's transformation initiative. 
This initiative will realign the deployment and demobilization 
stations. The Army recognizes that readiness and morale are key 
components of determining the locations of deployment and 
demobilization stations.
    The Army continues its effort to reduce stress on the Active 
Component (AC) and Reserve Component (RC) forces by achieving near term 
boots on the ground (BOG): Dwell goals of 1:2 AC and 1:4 RC. Starting 
in FY12, Reserve Component Soldiers (USAR and ARNG) will have at least 
four years at home for every year deployed.
    The Army's effort is contingent upon continued decrease in global 
demands and assured access to the Reserve Component. This effort will 
provide citizen Soldiers, Families and Employers with predictable 
deployment schedules. With your support for this plan, the Army will 
meet near-term BOG: Dwell goals of 1:2 AC and 1:4 RC starting in FY 12.
    Ms. Bordallo. What are each of the services top 3 unfunded 
requirements associated with ensuring a ready force, both in the near-
term and in the out-years?
    General Bolger. The Army's FY12 President's Budget request funds 
the Service's highest priorities to support the current wars, ensure 
readiness and strategic depth in an uncertain and increasingly complex 
strategic environment, and care for Soldiers, their families and Army 
civilians. We will ensure that Army priorities are appropriately 
resourced using whatever means are appropriated by the Congress. 
However, as we look toward FY12 program execution, we ask for Congress' 
support in helping the Army mitigate any fact of life changes that may 
develop during the course of the year. The Army appreciates the 
continued commitment and support of the U.S. Congress in all that we 
do.
    Please see attached April 15th, 2011, letter from GEN Dempsey to 
Representative Adam Smith. [See page 89.]
    Ms. Bordallo. The Department of Defense has become overly dependent 
on the use of services contractors. In your role as your service's 
operations planner, how do you factor in the use and role of services 
contractor? How do you measure how much your readiness to respond to 
continuing and emerging threats is reliant upon services contractors?
    General Bolger. Logistics contractor requirements increased over 
time due to the extended duration of conflict, the nature of the 
conflict, and combatant commander operational decisions. The Army is 
reliant, but not over-reliant, on contractors for logistics and other 
base support services, as concluded by a 2010 Joint Staff study on 
contractor dependency in which the Army participated. The Army does not 
factor in the role of contractors when calculating Readiness. However, 
contractors that provide maintenance operations (i.e., aircraft 
maintenance for Army aviation) do directly support the serviceability 
ratings of those organizations.

    Ms. Bordallo. Describe for me the Air Force's force sizing 
construct. Specifically, what type of force size metrics will be used 
in the future to capture accurately the inventory of aircraft available 
to the commanders? My understanding is, historically, the Air Force has 
counted structure via combat wings but is now moving to a tail-metric. 
I'm concerned that this will lead to an inflated perception about the 
readiness of our Air Force since a total count of wings won't be able 
to denote which aircraft are in depots or training. What is the 
rationale behind this change?
    General Carlisle. As the question has several parts, each will be 
addressed in turn.
    Regarding force sizing inputs/direction: As threats to our national 
security have changed over time, so have our force sizing constructs. 
Accordingly, the force options that the AF provides to the President 
through the combatant commanders have changed from the one-size-fits-
all fighter or combat wing to something more adaptable, scalable, and 
flexible to counter the evolving threat. To size a force that is able 
to respond to the pressing needs of combatant commanders today--yet 
remain adaptable to the ambiguous future threat--the AF participates 
actively in the Secretary of Defense's Support to Strategic Analysis 
(SSA).
    Force sizing process: In the SSA framework there are scenarios in 
which demand for Service capabilities is measured after all the 
competing demands for forces are combined. Within the SSA, Integrated 
Security Constructs (ISCs) are built to represent a series of demands 
on forces. This is based on potential contingency operations in various 
theaters and in combination is sourced using only PMAI (Primary Mission 
Aircraft Inventory) ``combat'' and ``combat support,'' coded aircraft 
inventory ensuring aircraft in depot and training units are properly 
accounted for. Within each of the ISCs there are three primary phases 
(non-surge, surge, and post-surge) in the planning construct. 
Component-specific (Active, ANG, AFR) rotation policies apply during 
the non- and post-surge phases that are included in force sizing to 
meet the demands.
    Force Readiness: AF forces are counted and task-organized as wings, 
groups and squadrons which capture the total force numbers to include 
the number of aircraft platforms. The AF generates and presents its 
force to desired readiness levels, thereby eliminating tiered readiness 
and minimizing any strategic implications. For counting forces, the AF 
uses tail-metrics that include PMAI counts as well as total tails; for 
determining readiness, PMAI is used along with other factors. This will 
increase visibility into our fleets for sustainment and 
recapitalization purposes.
    Ms. Bordallo. What are each of the services top 3 unfunded 
requirements associated with ensuring a ready force, both in the near-
term and in the out-years?
    General Carlisle. The Air Force made difficult choices while 
building the FY12 President's Budget, and we balanced our mission in a 
way that maximizes our efforts to support the joint fight, while 
embracing SECDEF guidance to achieve efficiencies goals. In accordance 
with Secretary Gates' intent, we looked within our own programs, 
strived to be more efficient, and used the savings for higher 
priorities, including readiness. We have identified several items that 
provide direct support to our combatant commanders in today's joint 
fight that emerged since the FY12 President's Budget submission. The A-
10 Maintenance Tester and the EC-130H avionics upgrade improve our 
readiness posture and operational capabilities by resolving issues that 
could require grounding Aircraft. We also require a variety of 
munitions replacement in support of ongoing operations that will 
provide replenishment of weapons critical to meeting future wartime 
needs. If we receive full support of our FY12 budget request, we are 
confident we can fund our most critical requirements to ensure a ready 
force.
    Ms. Bordallo. The Department of Defense has become overly dependent 
on the use of services contractors. In your role as your service's 
operations planner, how do you factor in the use and role of services 
contractor? How do you measure how much your readiness to respond to 
continuing and emerging threats is reliant upon services contractors?
    General Carlisle. Contractors play an important role from an 
operational perspective, and sometimes provide niche and interim 
maintenance support. Currently, contract maintenance comprises a small 
percentage of the total maintenance effort for 13 airframes. However, 
contract maintenance provides a high percentage in mission areas that 
expanded rapidly to meet warfighter needs or in situations where there 
are no trained Air Force personnel to maintain the aircraft. Five 
aircraft types (C-27J, MQ-1/9, MC-12W, and RC-26) fall into this 
category and rely solely on contract maintenance. The Remotely Piloted 
Aircraft category is scheduled to increase to 800 aircraft by 2020 in 
order to meet warfighter demands. This rapid growth outpaced the Air 
Force's ability to staff and train personnel to maintain this high-
demand capability, necessitating the use of contract maintenance. While 
readiness is not an issue with contractor maintained aircraft, the Air 
Force will transition the MQ-1/9 to organic support over time.
    Ms. Bordallo. I understand that all the services continue to 
improve and increase their ISR capabilities across the various 
Combatant Commands. I am concerned that there is an over-focus of those 
assets in the CENTCOM AOR to the detriment of other AOR's like the 
Pacific. Can both of you describe what their respective service is 
doing to close this gap which poses significant risk, in my estimation, 
to our forces in the Pacific? I think we can all agree, as our 
independent panel testified last week, that it is paramount to our 
national security to continue to have unimpeded access to the Pacific 
theater and to have better intelligence in this AOR.
    General Carlisle. The Air Force provides Intelligence, Surveillance 
and Reconnaissance (ISR) assets to the combatant commands to support 
daily, steady-state operations and can redistribute assets when surge 
operations are required. The Joint Staff prioritizes and allocates ISR 
assets according to the Global Force Management Allocation Plan which 
matches available assets to combatant command requirements. While the 
majority of airborne ISR assets are currently supporting CENTCOM due to 
the high demand, assets are available to support efforts in the Pacific 
region. In addition to ``national'' assets that are available to meet 
COCOM requirements, the Air Force has established a Global Hawk 
squadron at Andersen AFB, Guam, and continues U-2 missions in the 
Republic of Korea. Additionally, Global Hawk, U-2 and WC-135 assets 
have all contributed to recent humanitarian operations in Japan.

    Ms. Bordallo. What are each of the services top 3 unfunded 
requirements associated with ensuring a ready force, both in the near-
term and in the out-years?
    Admiral Clingan. The Navy has two unfunded priorities for the PB12 
budget submission. There is a $367M shortfall in ship depot maintenance 
that equates to the deferral of 44 surface ship availabilities. 
Additionally, there is a $317M shortfall in aviation spares which are 
used to support over 3,700 individual fleet aircraft.
    Ms. Bordallo. The Department of Defense has become overly dependent 
on the use of services contractors. In your role as your service's 
operations planner, how do you factor in the use and role of services 
contractor? How do you measure how much your readiness to respond to 
continuing and emerging threats is reliant upon services contractors?
    Admiral Clingan. As mandated by Congress, the Navy is responsible 
to man, train, and equip the force while the Combatant Commanders are 
responsible for operational planning and employment. The Combatant 
Commanders are in a better position to explain how service contractors 
are factored into operational planning.
    The Navy employs a total force construct that applies the most 
suitable manpower--active, reserve, civilian, contractor--to accomplish 
specific tasks. The balance is adjusted annually as we shape the force 
to meet the needs of the Navy and address policy and fiscal guidance.
    The total force remains well postured to prevail in current 
conflicts and respond effectively to the multiple, concurrent, diverse 
crises anticipated in the future.

    Ms. Bordallo. I understand that all the services continue to 
improve and increase their ISR capabilities across the various 
Combatant Commands. I am concerned that there is an over-focus of those 
assets in the CENTCOM AOR to the detriment of other AOR's like the 
Pacific. Can both of you describe what their respective service is 
doing to close this gap which poses significant risk, in my estimation, 
to our forces in the Pacific? I think we can all agree, as our 
independent panel testified last week, that it is paramount to our 
national security to continue to have unimpeded access to the Pacific 
theater and to have better intelligence in this AOR.
    General Tryon. [The information was not available at the time of 
printing.]
    Ms. Bordallo. What are each of the services top 3 unfunded 
requirements associated with ensuring a ready force, both in the near-
term and in the out-years?
    General Tryon. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The Department of Defense has become overly dependent 
on the use of services contractors. In your role as your service's 
operations planner, how do you factor in the use and role of services 
contractor? How do you measure how much your readiness to respond to 
continuing and emerging threats is reliant upon services contractors?
    General Tryon. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN

    Mr. Runyan. Ensuring that our deploying and deployed forces have 
the equipment, training, and personnel they need often comes at the 
expense of non-deployed Army units. Under current budget constraints, 
what are the strategic implications for Reserve and National Guard Army 
units and their ability to provide ``surge'' capability to meet current 
and future threats?
    General Bolger. Manning: The Army Reserve/National Guard (ARNG) has 
been very successful in maintaining its assigned End Strength. However, 
the ARNG does not have the ability to pull from a pool of Soldiers at 
schools or in the accession pipeline as the Active Component does. All 
ARNG Soldiers are assigned to a Modified Table of Organization & 
Equipment (MTOE) or Table of Distribution and Allowances (TDA) 
position. This creates a situation where the ARNG must cross level 
between units and sometimes states in order to ensure that all ARNG 
formations are deploying at 100%. The ARNG has successfully met all 
requirements to date in support of overseas contingency operations. If 
recruiting and individual training resources do not meet requirements, 
the ARNG will be in a degraded position to continue to support Overseas 
Contingency Operations (OCO) demands.
    Equipping: The ARNG is at the highest level of equipment 
modernization and readiness that it has ever been. If that level of 
readiness is not sustained with the required resource levels then the 
ARNG's future ability to surge in support of overseas contingencies as 
well as Homeland Defense/Security will be degraded.
    Training: Pre-mobilization training resources set the stage for 
successful post-mobilization training and validation for deployment. 
The ARNG in conjunction with United States Army Forces Command 
(FORSCOM) and First Army has worked to decrease the amount of post-
mobilization training time over the last 10 years. This decreased post-
mobilization training time enables increased ``Boots on the Ground'' 
(BOG) time in theater. If pre-mobilization training resources are 
decreased, there will be a direct impact to the amount of BOG that 
Reserve Component (RC) units will perform.
    Overall decreased funding for the ARNG will create a situation 
whereby supporting surge efforts will be significantly degraded. The 
timelines involved with building readiness for RC units mandate that 
funding be at or near required levels. It is too late to apply 
increased funding when a surge demand is received. The timelines for 
acquiring and fielding equipment, sending Soldiers to Schools, and 
conducting individual pre-mobilization training are too long to support 
immediate reaction to OCO demand. If the RC is funded at required 
levels, units can respond to immediate demands as evidenced most 
recently by the 60-90 day notification to mobilization experienced by 
the 77TH Theater Aviation Brigade, the 116TH Infantry Brigade 
Headquarters, and six ARNG Tactical Unmanned Aircraft System (TUAS) 
Platoons.
    Mr. Runyan. We have not had a very good track record of predicting 
the next contingency. What is the Army doing to be ready for that next 
contingency and where do you think it will occur?
    General Bolger. While we cannot predict with certainty when and 
where crises may occur, we do anticipate that in an era of persistent 
conflict Army forces will continue to be required for a variety of 
missions. In order to best respond to a full spectrum of future 
operations the Army is creating a Surge Force. This Surge Force is 
capable of resourcing all Army requirements for the first two phases of 
the Department of Defense's operational contingency plans, one 
additional small scale contingency, and a homeland security event. The 
Surge Force will consist of one corps headquarters, three division 
headquarters, ten brigade combat teams, and 41,000 enablers in support 
of these formations. The Army's rotational model resources these units 
to high readiness levels before they enter the Surge Force window. 
Surge Force units will have sufficient dwell time to train to full 
spectrum standards.
    Mr. Runyan. We have been in combat now for almost ten years with 
many soldiers having repeated deployments. What effect has this had on 
unit, soldier and family readiness? How will your rotational model 
assist in preserving the all volunteer force and provide for a more 
ready force?
    General Bolger. Multiple deployments have rendered our Army out of 
balance. The effects of repeated deployments are increases in 
behavioral health stress in Soldiers, the number of non-deployable 
Soldiers in units, and high risk behaviors that affect the Soldier and 
their Families. Additional effects are a deployment to dwell ratio 
below 1:2 Active Component (AC) and 1:4 Reserve Component (RC), 
backlogs in Professional Military Education, and the lack of strategic 
depth and flexibility to support unforeseen contingencies. Restoring 
balance to the Army is a high priority. Full implementation of the Army 
supply based force generation model establishes predictable BOG:Dwell 
ratios, prepares the Army for full spectrum operations and sustains the 
All-Volunteer Force. The Army fully supports programs that sustain and 
build resilient Soldiers, Families, and Civilians. The Comprehensive 
Soldier Fitness Program and Army Risk Reduction and Health Promotion 
Program will assist in improving behavioral health. We will also 
maintain our pledge to the Army Family Covenant by assisting our 
Families in meeting the challenges, stresses and strains on those left 
behind.
    Mr. Runyan. What are the Army's three main challenges in readiness 
today?
    General Bolger. 1. Demand. The number one challenge to readiness 
today remains the continued and excessive demand for Army forces. While 
the overall demand for Army forces has been reduced, the demand for 
critical enablers continues to exceed sustainable levels, further 
challenging the Army's ability to meet required dwell time ratios for 
those units. Unique, ad hoc, and individual manning demands (joint 
manning documents, individual augmentations, etc.) place additional 
burdens on the force.
    2. Balance. The Army Force Generation (ARFORGEN) model provides a 
path for Army units to build readiness over time in order to maximize 
mission or contingency related readiness prior to arrival date or 
availability windows. However, because of the continued and excessive 
demand, the Army remains out of balance, both across the ARFORGEN Force 
Pools (Reset, Train/Ready and Available) and across the Components 
(Active and Reserve). Additionally, critical resources are often 
shifted from our non-deployed forces to ensure the success of our 
deployed forces. This is especially problematic for those units in the 
Train/Ready window, which under the doctrinal design of ARFORGEN, are 
to be manned and equipped to respond to un-foreseen contingencies. 
Currently, the Army's ability to respond to those contingencies is 
challenged and is addressed in the Chairman's Comprehensive Joint 
Assessment (CJA).
    3. Material Availability. The Reset phase of ARFORGEN is critical 
to ensuring that equipment is refitted, re-distributed, and/or fielded 
as new equipment to units. The Army forecasts the need for Reset may 
continue for multiple years following the end of Operation New Dawn (CY 
2011) and Operation Enduring Freedom. Steady, predictable, and 
continued support for both procurement and modernization of equipment 
coupled with continued support for the Army's Reset program is 
imperative to ensuring the adequate availability of equipment.

    Mr. Runyan. General Carlisle, in the near term what are your top 
Unfunded Requirements (UFRs) for Air Force readiness?
    General Carlisle. The Air Force made difficult choices while 
building the FY12 President's Budget, and we balanced our mission in a 
way that maximizes our efforts to support the joint fight, while 
embracing SECDEF guidance to achieve efficiencies goals. In accordance 
with Secretary Gates' intent, we looked within our own programs, 
strived to be more efficient, and used the savings for higher 
priorities, to include readiness. We have identified several items that 
provide direct support to our Combatant Commanders in today's joint 
fight that emerged since the FY12 President's Budget submission. The A-
10 Maintenance Tester and the EC-130H avionics upgrade improve our 
readiness posture and operational capabilities by resolving issues that 
could require grounding Aircraft. We also require a variety of 
munitions replacement in support of ongoing operations that will 
provide replenishment of weapons critical to meeting future wartime 
needs. If we receive full support of our FY12 budget request, we are 
confident we can fund our most critical requirements to ensure a ready 
force.
    Mr. Runyan. The fiscal year 2012 budget request reflects shortfalls 
in depot maintenance requirements. With an aging aircraft fleet how 
much risk does this pose to Air Force Readiness. What is the impact?
    General Carlisle. Although we took risk in weapon system support by 
initially funding it at 80 percent, we identified efficiencies that 
improved funding to 85 percent. Additionally, we are managing near term 
risk and maintaining our warfighting readiness through balanced support 
to our legacy fleet and new aircraft. The 16 percent in unfunded 
requirement risk includes software, sustaining engineering and 
technical orders; however, this is mitigated through enterprise-wide 
prioritization to fund the highest priority systems in the year of 
execution while ensuring a stable depot workload and workforce is 
maintained. The long-term depot maintenance risk is mitigated through 
Full Scale Fatigue Testing and Structural Integrity and Service Life 
Extension Programs which will improve the sustainability of legacy 
aircraft and ensure total force readiness.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
